Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 CHIP’s Impact On Changing Service
 Delivery Of Federal Health Centers

             Six Case Studies




                     JUNE GIBBS BROWN
                      Inspector General

                        OCTOBER 1999
                        OEI-06-98-00320
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law
95-452, is to protect the integrity of the Department of Health and Human
Services programs as well as the health and welfare of beneficiaries served by
them. This statutory mission is carried out through a nationwide program of
audits, investigations, inspections, sanctions, and fraud alerts. The Inspector
General informs the Secretary of program and management problems and
recommends legislative, regulatory, and operational approaches to correct them.

                        Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the
Office of Inspector General. It conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The inspection reports provide findings and
recommendations on the efficiency, vulnerability, and effectiveness of
departmental programs.

OEI's Dallas office prepared this report under the direction of Chester Slaughter,
Regional Inspector General and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

REGION                                           HEADQUARTERS

Kristine Lykens, Project Leader                  Wynethea Walker, Program Specialist

Nancy Juhn                                       Barbara Tedesco

Scott Whitaker

Lisa White



To obtain copies of this report, please call the Dallas Regional Office at 1-800-848-8960.
Reports are also available on the World Wide Web at our home page address:

                           http://www.dhhs.gov/progorg/oei
                                           OVERVIEW




PURPOSE

To examine the experience of six Federally funded health centers during their State’s early
implementation of the Children’s Health Insurance Program (CHIP) and/or concurrent Medicaid
expansions within the context of the changing health care environment.

RESULTS IN BRIEF

With their tradition of serving low income children, Federally funded health centers have
considerable potential for supporting the goals of CHIP. These centers possess great aptitude
for outreach and enrollment due to the level of trust and service they have established in their
communities. Recognizing the need to adapt to managed care environments, most centers
have assertively joined managed care organizations or undertaken special developmental
efforts, ranging from infrastructure enhancements to creation of entire managed care
organizations. Not surprisingly, transition from cost-based reimbursement continues to be a
challenge for centers as they seek to better manage costs and devise appropriate
reimbursement formulae within their health plan contracting.


BACKGROUND

Legislation: Enacted as part of the Balanced Budget Act of 1997, CHIP was a response to
increasing numbers of children lacking health coverage. The legislation gives States flexibility
to institute a separate health insurance program, expand Medicaid eligibility or combine these
approaches. A higher Federal match rate under CHIP than for primary Medicaid provides an
incentive for States to implement the legislation. Children applying for insurance through
these programs must first be screened for Medicaid eligibility.

Federally funded health centers: Generally located in communities with low to moderate family
incomes, Federally funded health centers have been major safety-net providers for low
income children since the 1960s. Such centers were often, and continue to be, the primary
health care source for growing numbers of children without health insurance when the CHIP
was passed. Centers are funded by Section 330 of the Public Health Service Act, with some
receiving State and local funds as well. In addition to primary health care services, these
clinics also provide enabling services such as translation, health education, and transportation
which are important to serving the CHIP population. Besides CHIP implementation, Federally
funded health centers have experienced other substantial and related changes in the health
care system, particularly due to increased use of managed care by State Medicaid programs
in the 1990s.


Federally Funded Health Centers and CHIP       1                                   OEI-06-98-00320
Methodology: This qualitative case study report describes the experiences of six health
centers’ involvement in CHIP implementation. We conducted site visits in August and
September, 1998, during the very early implementation of the program. Using structured
protocols, we interviewed executive and clinical directors, financial officers, and other staff
members. Staff from State Medicaid programs, CHIP agencies, managed care organizations
and Primary Care Associations (PCAs)1 who interacted with the health centers were also
interviewed. Using qualitative data analysis software, we analyzed each center as an
individual case. In a second phase of this study, we will apply issues and insights from these
case studies to gather additional information from a sample of Federally funded health centers
concerning their involvement in CHIP implementation. Knowledgeable staff from the Health
Resources and Services Administration (HRSA), the Health Care Financing Administration
(HCFA), and the Office of the Assistant Secretary for Planning and Evaluation (ASPE), as well
as persons interviewed in during our site visits, reviewed and commented on the draft of this
document. Their suggestions and technical corrections are reflected in this final report.

The States selected represent the variety of possible CHIP model choices and geographic
regions. Within each of these States we selected for study a center regarded as effective in
implementing CHIP, by its State administrative agencies and area PCAs. The chart below
identifies the State where the center is located, the CHIP model implemented by the State,
program characteristics, and the actual center studied.


                               State CHIP Program Models and Center Sites
 State             Model           Program Characteristics                                      Center Visited/City

 New Mexico        Medicaid        closely followed earlier State-initiated expansion, except   Health Centers of Northern New Mexico
                   Expansion       for a cost-sharing element for higher income families        Espaòola, NM

 South             Medicaid        voluntary managed care with choice of HMO or one of          Family Health Centers
                   Expansion       two rural managed care alternatives                          Orangeburg, SC
 Carolina

 Colorado          Freestanding    preferring a private sector approach, even administrative    Plan de Salud de Valle
                   CHIP Plan       functions often privatized                                   Fort Lupton, CO

 Connecticut       Combination     plans share same name, application form, and                 Fair Haven Health Center
                   Model           administrative agency                                        New Haven, CT

 California        Combination     administered independently, both programs encourage          La Clínica de la Raza
                   Model           inclusion of safety-net providers                            Oakland, CA

 Michigan          Combination     incentives to include safety-net providers in managed        Cherry Street Health Services
                   Model           care via contract bidding preferences                        Grand Rapids, MI

 Benefits covered in States we visited generally were comprehensive, and based either upon standard Medicaid services
 (including EPSDT) or large employer group benefits. All States, except Colorado, covered dental services at the time of
 our visit.




Federally Funded Health Centers and CHIP                            2                                                      OEI-06-98-00320
CROSS-CUTTING ISSUES

The following information identifies the most salient features and issues regarding the role of
Federal health centers under CHIP. These specific issues are discussed at length in the
individual case studies which follow.

Health Center Services:

<	
< Except   in Colorado, all centers visited operate school-based health clinics, and consider
   them a key element of CHIP health service delivery. Centers we visited offer
   comprehensive primary and preventative services, with some offering additional service
   enhancements such as mental health care, asthma and diabetes management, vision and
   dental services.

<	 Dental care was identified as a critical service for children, with some centers giving
   children priority for appointments, since client demand often exceeds capacity. Yet, low
   Medicaid and dental insurance reimbursements are causing some centers to reconsider
   offering this service.

<	 Capacity to serve uninsured families was identified as a problem by the large urban health
   center we visited in California. Over 600 families were on a waiting list for center services
   at the time of our site visit, even though the center was expanding.

Outreach and Enrollment: Health centers visited pursued a variety of enrollment activities.

<	 For existing patients, activities ranged from recruitment from families already seeking
   services to direct telephone contact of potentially eligible families. School-based clinics
   operated by the centers provided another avenue for outreach and enrollment.

<	 These centers also reached out to surrounding communities to identify and enroll CHIP and
   Medicaid eligible children. Of the centers visited, Fair Haven in Connecticut best
   demonstrated such “grass-roots” community outreach through a “Sign-up for CHIP Day”,
   and “door-to-door canvassing” in a nearby housing project. Several centers were targeting
   schools, where they operated clinics, to provide information and application assistance to
   families of children attending there.

<	 Outreach/enrollment efforts have not been without challenges for the health centers.
   Policy ambiguity raised concern that CHIP benefits would be deemed a “public charge” for
   immigrant families, increasing their fear of government, and hindering enrollment of their
   eligible children, particularly in California. Although this issue was recently resolved legally,
   respondents believed significant effort would be required to overcome this fear. However,
   health centers feel they are in a strong position to work with these families due to the trust
   established in caring for them as patients. Translation services available at most of the
   centers we visited would also facilitate reaching these populations.




Federally Funded Health Centers and CHIP         3                                     OEI-06-98-00320
<	 Desiring to engage in more outreach efforts, center and PCA directors we interviewed
   expressed frustration at being hampered by a lack of resources for outreach workers.
   Connecticut health centers had applied for outreach contracts with the State and the
   Michigan center planned to apply for similar monies as well. The health center and PCA
   staff in California expressed concern over the inadequacy of the $25 for application
   assistance reimbursement due to the amount of personnel time it requires.

Planning and Implementation: The extent of direct health center involvement in the planning
and implementation of the CHIP plans in their States varied widely.

< Some centers testified at input forums and legislative hearings, while others participated
<	
   exclusively through their PCA. Despite direct representation on planning committees, Plan
   de Salud in Colorado did not believe it heavily influenced the outcome. Advocacy for
   including a dental benefit did not secure its inclusion in the final plan.

<	 Most centers visited noted that their primary role in CHIP planning and implementation was
   through their PCAs. In New Mexico, the PCA director is a member of the Medicaid Advisory
   Committee. The PCA director in California presented issues to the CHIP governing board
   and reported success in the managed care contracting system, which favors contracts that
   include safety-net providers, such as health centers. The Michigan PCA aided its
   legislature’s decision to include Medicaid expansions in their plan.

<	 All health center directors we spoke to expressed a preference for Medicaid expansions to
   implement CHIP in their States. Their reasons focused on Medicaid’s comprehensive child
   health benefits plus its pre-existing infrastructure. New Mexico and South Carolina
   selected a Medicaid expansion model only. Center directors from most other States stated
   that preferences for privatization influenced their State’s decision to adopt a combination
   model or a free-standing program.

< Three States we visited, California, Michigan and New Mexico, had provisions either
<	
   requiring managed care organizations to contract with health centers or providing incentives
   to include them in their contract bidding process.

Adapting to a Changing Healthcare Environment: Of the centers visited, all but one operate
in States which employ mandatory managed care for their health delivery system. Valuable
strategies pursued by these centers to adapt to an environment in flux included use of
managed care organizations, consolidation, networking and shared services.

<	 Formation of or participation in health center-based managed care organizations - Usually
   with assistance of Integrated Service Network funds from HRSA, these efforts are teaching
   health centers the managed care business and allowing participation in decision-making
   which affects them. The exception is the center in New Mexico, which contracts with the
   Medicaid managed care plans in its service area.




Federally Funded Health Centers and CHIP       4                                   OEI-06-98-00320
<	 Consolidation, networking and shared services - The health center in New Mexico grew
   from the consolidation of free-standing clinics from a seven-county service area. To
   enhance productivity, PCAs in Connecticut and South Carolina and the county-based health
   center network in California are coordinating such shared services as an auto-dial telephone
   contact system, payroll, pharmacy purchasing, auditing, laboratory contracting, and
   consulting services.

<	 Infrastructure adjustments - Pervasive among health centers we saw, adjustments include
   upgrades to Management Information Systems, either made or planned, and addition of
   staff positions for financial management, managed care coordination and assistance to
   clinicians. Redesign or consultant projects to enhance productivity are also underway in
   centers visited in Connecticut, California and South Carolina.

Medicaid reimbursement structures remain a major challenge for most health centers:

<	 Most health center directors expressed concern over the phase-out of cost-based
   reimbursement by 2003, as stipulated by the Balanced Budget Act of 1997, particularly
   regarding the funding of enabling services they provide. Centers in South Carolina and
   Connecticut have undergone periods with and without caps on cost-based reimbursement
   rates which resulted in financial difficulties, requiring loans or financial recovery plans.
   Health centers in Michigan had agreed to a methodology to allow a phase-in to risk
   assumption, although HCFA approval was pending when we visited.

<	 The health centers visited in California and Connecticut were assuming some risk for health
   services costs for managed care patients. The South Carolina center was starting a pilot
   project with the Medicaid program to capitate primary care services. Other centers were
   also considering assuming some risk as part of their strategy for transitioning from cost-
   based reimbursement.

CASE STUDIES
The Health Resources and Services Administration and the Office of the Assistant Secretary
for Planning and Evaluation expressed strong interest in this study of health centers’ early
involvement in CHIP implementation. To meet their needs, we prepared the following resource
document consisting of case studies of health centers we visited in six different States. In it,
the issues described above are outlined in greater depth as they relate to specific centers.




Federally Funded Health Centers and CHIP       5                                   OEI-06-98-00320
                       TABLE                        OF             CONTENTS



                                                                                                                         PAGE


OVERVIEW           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


HEALTH CENTER CASE STUDIES


         Fair Haven Health Center, New Haven, Connecticut . . . . . . . . . . . . . . . . . . . . 12


         La Clínica de la Raza, Oakland, California . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


         Cherry Street Health Services, Grand Rapids, Michigan . . . . . . . . . . . . . . . . . . 27


         Plan de Salud del Valle, Fort Lupton, Colorado . . . . . . . . . . . . . . . . . . . . . . . . 34


         Family Health Centers, Orangeburg, South Carolina . . . . . . . . . . . . . . . . . . . . . 41


         Health Centers of Northern New Mexico, Española, New Mexico . . . . . . . . . . . 48


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55


BIBLIOGRAPHY             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60


APPENDIX A: Documents Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1





Federally Funded Health Centers and CHIP                       6                                               OEI-06-98-00320
                                     INTRODUCTION



PURPOSE
         To examine the experience of six Federally funded health centers during their State’s
         early implementation of the Children’s Health Insurance Program (CHIP) and/or
         concurrent Medicaid expansions within the context of the changing health care
         environment.

BACKGROUND

         For the past three decades, Federally funded health centers have been a critical part
         of the health care safety-net for low income families. These centers have struggled
         in the 1990s to continue to fulfill this mission as States have moved to managed care
         for their Medicaid programs. Adaptation is also needed as States adopt a variety of
         approaches to implementing CHIP. Since services for children are a large component
         of their programs, these health centers hold considerable promise in helping realize the
         goals of the CHIP legislation. Thus, the Health Resources and Services Administration
         (HRSA) and the Office of the Assistant Secretary for Planning and Evaluation (ASPE)
         have expressed strong interest in looking at the involvement of centers in the early
         implementation of CHIP.

Children’s Health Insurance Program

         As of 1999, an estimated ten million children in the United States were uninsured.2
         The Balanced Budget Act of 1997, in a new Title XXI of the Social Security Act,
         created CHIP. Authorized for ten years, and funded at $20.3 billion from 1998-
         2002,3 the CHIP program targets children in low-income families (generally under
         200% of the Federal poverty level) with the intent of providing them with the same
         quality health care enjoyed by most privately insured children.

         The legislation gives States flexibility in designing their programs. They may simply
         expand Medicaid eligibility for children, institute a separate health insurance program
         or use a combination of these approaches. If Medicaid expansions are used, the same
         benefits and administrative rules used by the existing Medicaid program apply. States
         which previously expanded Medicaid for children, or created State-specific programs,
         are allowed to expand eligibility beyond 200 percent of the Federal poverty level to 50
         percentage points higher than their existing eligibility limits.4 If a State creates a new
         health insurance program for children, they may establish different benefits within
         Federally legislated minimum standards. For example, preventative services are
         required, but dental services are optional. These new programs may also establish a
         separate agency to administer the program. The Health Care Financing Administration
         (HCFA) is responsible for administering CHIP, with joint oversight by HRSA.


Federally Funded Health Centers and CHIP         7                                    OEI-06-98-00320
         Because the CHIP legislation provides higher rates of Federal matching funds than the
         existing Medicaid program, the Medicaid benefits package frequently is richer than
         most private insurance. In addition, since Medicaid is an entitlement, screening children
         for Medicaid eligibility first is required. Studies have shown that the percentage of
         eligible children enrolled in the Medicaid program has been low (about 70% nationally
         5
          ) and is even lower in some States and among minority children. Consequently, policy
         makers and analysts anticipate large numbers of children applying for CHIP will actually
         enroll in existing Medicaid programs.

Federally Funded Health Centers and CHIP

         Health Centers and Provider Networks

         Federally funded health centers are an integral part of the “safety net” of health
         providers for uninsured children and adults. These health centers, under the Public
         Health Services Act, Section 330, are generally located in neighborhoods or
         communities near low and moderate income families. They have long been the
         traditional health service provider for many of the children now eligible for CHIP. These
         clinics also provide enabling services such as translation, transportation, health
         education, case management and other social services important to meeting the needs
         of this population.

         Medicaid program contracting with managed care organizations has been developing
         since the early 1990s. Currently, the majority of States require managed care
         enrollment for at least some of their child and young adult populations. The CHIP
         legislation is expected to accelerate these changes in both Medicaid service delivery
         and reimbursement structures. However, some policy makers and analysts have
         expressed concern regarding the extent to which Federally funded health centers are
         incorporated into the provider networks for Medicaid managed care organizations.6 An
         analysis of Medicaid managed care contracts found substantial variance in whether
         States require or encourage managed care organizations to incorporate safety-net
         providers into their networks.7

         Adapting to Managed Care

         Assisting centers in the adaptation to health care systems changes is the focus of the
         HRSA’s Center for Managed Care. Created in 1996, it provides technical assistance
         and training opportunities for the health centers. HRSA commissioned a study of the
         impact of managed care on the health centers. The study described numerous
         adjustments and emerging issues for the centers in adapting to these changes,
         including strategic decision-making regarding managed care, formation of “safety-net”
         provider owned and operated managed care organizations, financing and
         reimbursement, contracting, staffing, patient care management and relationships with
         State governments.8

         The financial viability of “safety net” providers, including the health centers, has been
         of considerable concern to policy analysts beyond HRSA. Studies in several States


Federally Funded Health Centers and CHIP         8                                   OEI-06-98-00320
         have shown centers to be under considerable pressure to compete with private
         providers for inclusion in managed care provider networks, and to gain or retain
         patients, and from cost competition.9,10 In order to meet contract requirements and
         operate effectively in managed care organizations, health centers need to make
         infrastructure and operational changes in areas such as management information,
         financial management, staffing, patient management, and quality assurance
         reporting.11,12

         Reimbursement is a major issue in health center viability due to managed care
         organizations’ preference for capitation of primary care providers. Since health centers
         often provide enabling services, typically not provided by private primary care
         providers, these services are not generally built into reimbursement methodologies, and
         recovery of the associated costs becomes a concern. The risk assumption implicit in
         capitation is very new to most health centers who may lack the necessary
         management information and financial management infrastructure to manage risk. Risk
         assumption also concerns centers, many of whom operate with small cash reserves.
         Cost-based reimbursement to health centers, currently required of Medicaid programs,
         is being phased-out by 2003. Furthermore, State CHIP Programs are not bound by this
         requirement and may not always provide cost-based reimbursement to the centers.13




METHODOLOGY AND SCOPE
         This study provides a description of the early experiences of Federally funded health
         centers in the implementation of State CHIP and/or Medicaid expansions. We
         conducted the study in two phases. The first phase, reported here, involved case
         studies of six selected Community Health Centers and their interaction with State
         programs and their Primary Care Associations (PCAs). From this Phase I report we are
         designing a follow-up study to obtain representative, national information on centers’
         experiences and issues regarding their participation in the implementation of CHIP and
         Medicaid children’s expansions.

Site Selection

         We purposively selected six case study States: California, Colorado, Connecticut,
         Michigan, New Mexico, and South Carolina. The following criteria were used, resulting
         in the sample characteristics described below.

       < Type of Grantee:	                 A combination of health centers which included funding for
                                           Community Health Centers and Migrant Health Centers.14

       < State Program Type:	 The States selected are using a combination of a CHIP
                              program and Medicaid expansions, a CHIP program only, or
                              Medicaid expansions only.




Federally Funded Health Centers and CHIP                9                                OEI-06-98-00320
       < Service Delivery:	                Although most States are primarily using managed care
                                           delivery systems (also true in our sample), one State used a
                                           fee-for-service delivery system for a small voluntary managed
                                           care component.

       < Geography:	                       States represented include the east and west coast, the
                                           midwest, the inter-mountain west, the southwest and
                                           southeast regions of the country. The health centers are
                                           located in large and small cites, as well as rural areas.

         After selecting sample States, we contacted State officials and PCA directors in these
         areas for recommendations of health centers they considered to be successfully
         involved in the early implementation of CHIP and Medicaid expansions. One health
         center per State was chosen as the focus of Phase I of our study. The following
         health centers were selected: Fair Haven Health Center, New Haven, Connecticut; La
         Clínica de La Raza, Oakland, California; Cherry Street Health Services, Grand Rapids,
         Michigan; Plan De Salud Del Valle, Inc., Fort Lupton, Colorado, Health Centers of
         Northern New Mexico, Española, New Mexico; Family Health Centers, Inc.,
         Orangeburg, South Carolina.

Data Collection and Analysis

         We used three methods of obtaining data for our study. First, we conducted
         structured, in-person interviews at the Federally funded health center, the PCA, the
         State Medicaid and/or CHIP agency and, if applicable, a managed care organization
         which had a CHIP and/or Medicaid contract with the health center.15 We also analyzed
         data from the Uniform Data System of the Bureau of Primary Health Care for each of
         the health centers we visited. These interviews were conducted in August and
         September, 1998, during the very early in the implementation of CHIP. Finally, we
         reviewed documents requested from the interviewees concerning the implementation
         of CHIP and Medicaid expansions in their States.

         Structured interview protocols were developed to collect qualitative data from the
         health centers and the other actors. For the health center interviews, separate
         protocols were developed for the Executive Director, the Chief Financial Officer, and
         the Medical Director or senior pediatric medical staff member. In a few health centers
         we were fortunate to be able to interview an outreach worker or migrant health
         worker. We pretested our protocols in a site visit to Connecticut, with excellent
         results, and were thus able to fully use this site visit in our study.16 Site visits were
         then conducted in the remaining five States. All interviews were audio-taped with the
         permission of the persons interviewed.

         In addition to the interviews, we asked each health center to provide selected tables
         from their most recent Uniform Data System annual report for background information
         regarding patient demographics, revenue sources, services provided and staffing.
         Furthermore, we asked each entity we visited to provide documents which would help


Federally Funded Health Centers and CHIP                10                                  OEI-06-98-00320
         us understand the CHIP and/or Medicaid program in their States, their role in the
         implementation of the program, and significant issues regarding the program. As a
         result, a considerable range of documents was collected and reviewed in the analysis
         of each case in this study. Examples of documents collected included general health
         center and CHIP outreach materials, application forms, State legislation and
         regulations, managed care contract templates, managed care provider and member
         manuals, and State guidance memoranda. A complete listing of these materials is
         found in Appendix A.

         To analyze the information obtained in our interviews, each tape was transcribed.17
         We then used a qualitative data analysis software package18 to code each transcript
         using descriptive and analytic categories developed by the study team. Reports were
         generated for each category, linking the responses of all interviewees in each State.
         Thus, we are able to summarize, compare and contrast a number of perspectives on
         each category or issue we identified. This report consists of a case description for
         each of the health centers within the context of their respective States.

         Since health system changes for children’s health care are expected to accelerate as
         a result of CHIP, we refer to necessary adjustments of health centers as “CHIP
         Readiness”. This report addresses these readiness issues, as well as health center
         involvement in CHIP implementation, outreach activities, and provision of children’s
         health care services. It also includes our assessment of the key factors underlying the
         health centers successful involvement in CHIP and/or Medicaid expansions.

         HRSA, HCFA, ASPE, and those we interviewed at the sites reviewed and commented
         on the material in this report. Their suggestions and technical corrections are reflected
         in this final report. None voiced any substantive objection to the material. A request
         was made for additional information on enrollment numbers at the time of our visits.
         Although these numbers were not always available, they were incorporated in the
         report where we had the information.

         A second phase of this study applies issues and insights from these case studies to
         developing a national survey of Federally funded health centers and CHIP
         implementation. In early 2000, we plan to release a report based on this survey and
         the insights gathered through the case studies. Due to comments regarding the draft
         of this report, we plan to explicitly ask for information on outstationing of Medicaid
         eligibility workers.

         We conducted our study in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Federally Funded Health Centers and CHIP        11                                   OEI-06-98-00320
                      FAIR HAVEN HEALTH CENTER
                                     New Haven, Connecticut


State Model: Combines Medicaid expansions with a free-standing program. Programs share name,

application form, and administrative agency for easy client transition/welfare stigma reduction.


Center Highlights:

<      Prior experience with managed care; developer and member of a managed care organization of

       Federally funded health centers;
<      Added managed care coordinator to staff, and plans future MIS upgrades;
<      Aggressive and creative outreach activities, largely self-funded with grant applications pending;

Challenge: The center faces reduced reimbursement rates due to the capitation level for primary care versus
the higher, fee-for-service rate received from another managed care plan. This disparity possibly threatens
funds which subsidize enabling services and care for the uninsured.


Connecticut CHIP Model

         Several of those interviewed stated that various legislative and administrative
         components have been very supportive of health insurance for children in recent years.
         In fact, prior to the national Children’s Health Insurance Program (CHIP) legislation,
         Connecticut had instituted a set of optional Medicaid children’s expansions. This
         program, entitled “Healthy Start” (not a HRSA Healthy Start program), expanded
         Medicaid for pregnant women and children, through age 11, to 185 percent of the
         Federal poverty level (FPL).

         To implement the CHIP legislation, Connecticut utilizes a combination model of
         Medicaid children’s expansions, and a separate Children’s Health Insurance Program.
         Both parts of the model use continuous eligibility for 12 months before re-application
         is necessary, and are administered by the Department of Social Services. The Medicaid
         portion, called HUSKY A, expands Medicaid eligibility to children in families with
         incomes up to 200 percent of the FPL. Benefits for HUSKY A children match those of
         traditional Medicaid recipients. HUSKY B, the separate CHIP portion, is for children in
         families at incomes between 200 percent and 300 percent of the FPL and is State-
         specific. Families at incomes greater than 300 percent of the FPL may purchase
         HUSKY B for their children for an unsubsidized premium.

         The HUSKY B benefits are based upon those of three State employee options.
         Benefits include required services, as well as mental health and substance abuse,
         prescription drugs, durable medical equipment and dental services.19 Service delivery
         is provided by contracting with managed care organizations, as has been the case for
         the majority of Connecticut Medicaid recipients since 1995.




Federally Funded Health Centers and CHIP            12                                       OEI-06-98-00320
Health Center Background

         Fair Haven Health Center is a medium sized center, which served about 10,000
         patients in 1997, and has been in operation for over 25 years. The health center
         consists of one main clinic, three school health clinics, and a site at a housing project
         for the elderly. The main clinic is located in a largely Hispanic area of New Haven.
         Since nearly 60 percent of the center’s patients are Hispanic, about half of the centers’
         patients are estimated to need bilingual services or translation. Children and
         adolescents comprise a substantial portion of the patient population (about 50%).20
         As described later, a full range of preventative and primary care services, as well as
         some specialty services, are provided to children. Our visit was conducted in August
         1998, during the early implementation of the Connecticut program.

Planning and Implementation

         Fair Haven and its Primary Care Association (PCA) reported that they had little
         influence on the final model chosen in Connecticut. However, all parties acknowledged
         that the required opportunities for input through legislative testimony were provided.
         The Connecticut Primary Care Association (CPCA) was in the process of hiring a new
         Executive Director during the period of CHIP deliberations and this may have decreased
         their level of influence. Both the health center and the PCA indicated that their
         preference was to use a Medicaid expansion for all children. Their rationale was that
         the administrative infrastructure was already in place, and Medicaid benefits are the
         most comprehensive. However, much of the State’s consultation regarding the
         development of the plan was with the legislatively funded Children’s Health Council,
         of which the CPCA is a member.

         Collaboration between the HUSKY Program and the Federally funded health centers
         appears to be growing. The CPCA annual meeting in June 1998 focused on
         collaboration generally, and “Planning for HUSKY” was the focus of one of the meeting
         sessions. The Deputy Commissioner of the Department of Social Services addressed
         the health centers regarding implementation and outreach for the program and provided
         applications and outreach materials for center use at that session. The CPCA has also
         submitted a grant proposal for HUSKY outreach, as discussed in the next section.

Outreach for CHIP

         Utilizing its existing resources, Fair Haven Health Center initiated HUSKY outreach
         activities from the very beginning of the program. These activities were good examples
         of local, “grass-roots” outreach in action. The health center outreach worker
         “blanketed” the business area of the Fair Haven neighborhood with a bilingual flier,
         specifically aimed at their potential patient population,21 and alerted them to the
         HUSKY insurance program and services offered by the health center. At a local
         housing project, door-to-door canvassing was also conducted to disseminate HUSKY
         program information and to take some “on-the-spot” applications, which an outreach
         worker would mail in. Area businesses were involved at the request of the health
         center, with a local branch bank co-sponsoring a “Sign-Up for HUSKY Day” in the bank

Federally Funded Health Centers and CHIP        13                                   OEI-06-98-00320
         lobby on the busiest day of the month. The health center noted plans to conduct
         outreach and applications for the HUSKY program at their school sites, when the
         school year started. Although numerous applications were being submitted, only about
         50 children had been added to the Community Health Network, the plan formed by the
         health centers, at the time of our site visit when outreach activities were in an initial
         stage.

         State resources for HUSKY outreach include an allocation for community grants of
         $450,000.22 Shortly before our site visit, responses were due to a Request for
         Applications for outreach grants ranging from $20,000 to $100,000. Fair Haven is
         part of a local coalition in New Haven which is applying for a $20,000 grant to do local
         advertising and outreach activities to augment its activities described above. The
         CPCA also submitted a proposal to do a Statewide media campaign for HUSKY, that
         would target adolescents and young parents, a very hard to reach group. The CPCA
         also plans to utilize their “auto-dialer” phone system, a PCA shared service for the
         health centers, to tailor “customized” telephone messages to the existing clientele of
         the health centers. The Connecticut Children’s Health Council had also applied for
         $500,000 from the Robert Wood Johnson Foundation, “Covering Kids Initiative”.

         The Department of Social Services has contracted with Benova, an enrollment broker,
         to provide outreach and enrollment services. This is the same enrollment broker
         Connecticut uses for its regular Medicaid managed care program. Outreach materials
         and applications were printed and distributed Statewide. The health center indicated
         an early problem in obtaining application forms in Spanish from the enrollment broker.
         However, this was resolved by the direct distribution by DSS to the PCA. The
         enrollment broker accepts telephone applications via a 1 - 800 number as well.

         Some problems with outreach and enrollment were identified by the health center
         personnel. One was the interface between HUSKY A (Medicaid) and HUSKY B (the
         separate CHIP program) enrollment processes. Applications for HUSKY B are screened
         for Medicaid eligibility by the enrollment broker. If Medicaid eligibility is deemed likely,
         the application is referred to DSS for processing. This often requires additional
         documentation for the application, which is forwarded to the family for response.
         Concern was expressed that this procedure made it easier for families to get lost in the
         process.

         A second critical concern was expressed regarding children of immigrants and migrant
         workers engaged in seasonal farmwork. Some families may have children born in the
         U.S., and thus eligible for Medicaid or CHIP, whereas older children and parents are
         undocumented. The HUSKY application form does request citizenship status, but for
         the children only. However, some felt the concept that children of undocumented
         parents might be eligible for such benefits is hard to convey to the immigrant
         population. This issue was identified for additional training of outreach workers and
         application assistants.




Federally Funded Health Centers and CHIP          14                                    OEI-06-98-00320
Health Center Services for Children

         Primary/Preventive Services

         Fair Haven Health Center offers a comprehensive range of primary and preventative
         services to the children they serve. These services include well-child care,
         immunizations, pre-natal and delivery care by certified nurse midwives, pre-natal and
         other health education, family planning, and primary care for illnesses. This care is
         delivered at the main clinic and three school health clinics operated by the health
         center. The operation of the local Women, Infants and Children (WIC) program by the
         health center at their main clinic allows families to centralize most of their health care
         needs. Food vouchers and nutritional education are also provided by the WIC program.

         The health center operates three school-based health clinics, which are a key
         component of their delivery of health care to children. Connecticut strongly supports
         school-based health care. In this case, school-based clinics are funded through a State
         program under which the City of New Haven contracts with the health center. The
         main clinic’s child care is staffed by pediatricians and nurse practitioners, since their
         affiliated hospital does not grant admitting privileges to family practitioners. The
         school-based clinics, located in an elementary, middle, and high school, also provide
         preventative care and health education, as well as some episodic care for illness, such
         as nebulizer treatments for asthma. These clinics are staffed by nurse practitioners.

         Enabling and Specialty Services

         Several enabling services are also available to the families of children served by Fair
         Haven. The health center has a strong social service department which provides case
         management and outreach services. A particularly strong outreach program for well-
         child care has contributed to the 98 percent immunization rate by this center for
         children under age two. This successful outreach effort also includes transportation,
         when necessary, by the outreach worker. Bilingual medical staff and translators at the
         clinic are also an important enabling service of the center, which serves a largely
         Hispanic population. This combination of bilingual staff and translation was reported
         to work well, with occasional difficulty encountered during after-hours telephone
         contacts where client family members or neighbors needed to assist.

         Fair Haven is able to provide some specialty services to children at the main clinic in
         addition to its central preventative and primary care services. With a board certified
         developmental pediatrician on staff, comprehensive developmental assessments can
         be conducted at the clinic which, otherwise, would require referral to a child guidance
         center, often with considerable waits. Mental health services are not provided by
         health center staff; however, child guidance center staff conduct evaluations at the
         clinic weekly. Obstetrical and gynecological services, including family planning and
         pre-natal education, are also provided by certified nurse midwives at the clinic. Dental
         services are not offered, although the other Federally funded health center in New
         Haven does offer them. Dental care was noted as a problem for children served by the
         center, since very few local dentists accept Medicaid patients. As a result, dental


Federally Funded Health Centers and CHIP         15                                   OEI-06-98-00320
         service capacity was viewed as inadequate for the needs of poor children. The health
         center staff indicated that referral networks for children’s specialties are quite good,
         since most of these services are provided by the Yale faculty, who are members of
         local managed care organizations.

         Fair Haven staff were confident that many of the children already served by the health
         center would obtain HUSKY. The significance of this coverage, beyond additional
         revenue, was an improvement in the treatment options available for these children.
         For example, the medical staff indicated that concerns about prescribing some costly
         medications would be alleviated, as would delays in non-emergency specialty care due
         to waiting times to obtain subsidized care. However, availability of prosthetics,
         orthotics and durable medical equipment for disabled children was still perceived to be
         problematic.

CHIP Readiness

         Managed care participation is a critical component of the Federal health centers’
         readiness for CHIP and prior events in the Medicaid program had well-prepared Fair
         Haven. The State implemented a mandatory Medicaid managed care waiver for
         younger adults and children in 1995. In the words of the health center director, “...I
         think CHIP will all flow from this. So, I think that in some ways Medicaid managed
         care has prepared us for CHIP.”23 Connecticut Federally funded health centers
         responded to the introduction of Medicaid managed care through a strategy of forming
         their own managed care organizations. The Community Health Network (CHN) is the
         plan formed by the health centers and includes the New Haven area. This strategy
         was developed largely through a HRSA Integrated Service Network project coordinated
         by the PCA. Each of the original health centers contributed financially to the start-up
         costs as well. The PCA director at that time became the director of CHN. The health
         center and the PCA rationale for creating their own plan was to assure continuity and
         quality of care for their patients, as well as a desire for the care to be managed by the
         centers and their clinicians, rather than an insurance company. This health center also
         participates in a local managed care plan operated by Yale University.

         Although Fair Haven was already providing after-hours coverage and emergency room
         triage, they cited several adjustments necessary for managed care. The foremost of
         these was to augment staffing associated with referral management, a function of
         medical assistants in this center. Fair Haven is one of several health centers
         participating in a patient visit re-design project on the East coast. This project has
         identified a significant need for the center to augment their ancillary medical staff to
         achieve greater efficiency of clinician time. This center is also pursuing Joint
         Commission accreditation to strengthen its market position. In addition, substantial
         administrative adjustments are being made, as described below.

         Business infrastructure improvements in this health center largely focus on a new
         management information system (MIS). Fair Haven has issued a Request for Proposals
         to replace its current system, which is over 12 years old, although some upgrades
         have been made over the years. A key feature of the new MIS will be integration of


Federally Funded Health Centers and CHIP        16                                   OEI-06-98-00320
         software modules and databases, many of which are now separate. An appointment
         component, billing, patient information and report writing capabilities are integral to the
         new system. Although a clinical information component will not be initially included
         in the system, it may be added in the future.

         Administrative staffing adjustments were necessitated, largely in the billing area. For
         example, considerable time of the billing coordinator is now allocated to coordination
         with the managed care organizations. Additionally, the center has added a managed
         care coordinator, who also has considerable interaction with the managed care
         organizations, particularly in credentialing activities.

         Reimbursement for health care services was the most critical concern identified by
         both Fair Haven and the PCA. When the Connecticut Medicaid program implemented
         managed care in 1995, they initially stopped payment of cost-based reimbursement
         for health centers in their contracts with managed care organizations. The health
         center and the PCA emphasized that this policy drastically reduced their Medicaid
         revenues, causing Fair Haven to deplete all its cash reserves, and take out a line of
         credit to cover operating expenses while this policy was disputed by the centers and
         the PCA.

         The HCFA and HRSA intervened to resolve this problem, resulting in the State
         Medicaid program negotiating a settlement for these disputed reimbursements in April,
         1998. The payments were made retroactive to April, 1996 when the centers first
         asserted their right to cost-based reimbursement under Medicaid managed care. The
         negotiated payment amounts to approximately 64 percent of the disputed payments.24
         The wrap-around payments for cost-based reimbursement, supplemental to capitation
         or fee-for-service payments, were initially paid to the managed care organization for
         pass-through distribution to the health centers. However, effective September 1998
         the Medicaid program began distributing these payments directly to the health centers,
         based upon submitted encounter data.

         Community Health Network is currently paying their health centers a capitated rate for
         primary care services, and fee-for-service for specialty care. Fair Haven’s other
         managed care plan reimburses all services on a fee-for-service basis. The health center
         emphasized that these wrap-around payments primarily support the enabling services
         offered by health centers, and subsidize their care for the uninsured.

         The reliance of the health centers on cost-based reimbursement, which is being phased
         out as a Federal requirement as of 2003, is a continuing issue for the Medicaid portion
         of the HUSKY plan. HUSKY B (the separate CHIP program) does not require cost-
         based reimbursement to these centers.

Key Factors for Success

         Fair Haven was identified to our study team as a health center which is successful in
         its early implementation of the CHIP program in Connecticut. Several reasons for its
         success are identified in the case study described here. Foremost of these elements


Federally Funded Health Centers and CHIP         17                                    OEI-06-98-00320
         of success is the strong primary care program they offer for children in their
         community, since this positions them well to serve client needs under CHIP. Outreach
         to children, a vital factor, has been integral to their health care delivery model. This
         outreach includes three school-based clinics, well-child and immunization services, and
         recent, enthusiastic grass-roots efforts to enroll children in the HUSKY program.

         Another significant success factor for Fair Haven has been its commitment to making
         a broad range of adjustments to accommodate the changing health care environment
         in which it operates. These adjustments include active participation in a health center
         operated managed care organization, initiated when Connecticut made the transition
         to Medicaid managed care in 1995. Staffing realignments, participation in a patient
         visit re-design project, and upgrades to the management information system have also
         been essential adjustments.

         Challenges to continued success for the health center remain. The most pressing of
         these centers on reimbursement issues. When cost-based reimbursement for Medicaid
         patients was temporarily ended, a financial crisis arose which depleted the health
         center’s cash reserves and required a line of credit to maintain existing operating
         levels. Since cost-based reimbursement for Medicaid is being phased out and
         reimbursement for HUSKY B children will not be cost-based, the question remains
         whether this, and other health centers, can make the necessary adjustments to their
         revenues and costs. Lack of reimbursement for enabling services, such as outreach,
         health education, and translation have yet to be addressed.




Federally Funded Health Centers and CHIP        18                                  OEI-06-98-00320
                             LA CLÍNICA DE LA RAZA
                                           Oakland, California


State Model: Combines Medicaid expansions with a freestanding CHIP program. Administered by separate

agencies; both include mechanisms to encourage inclusion of safety-net providers. 


Center Highlights:

<      Use of extensive personal contact for CHIP outreach, to potentially eligible client families;

<      Affiliation with a local organization of health centers yielded shared resources, including payroll,

       hardware and software systems, and a patient database. Consolidation of MIS functions is a future
       consideration.

Challenge: Difficulties have emerged in the recruitment of eligible children of undocumented parents, with
prior ambiguous INS policies creating a “fear factor” within this community.



California CHIP Model

         To implement CHIP, California utilizes a combination model of Medicaid children’s
         expansions, and a separate CHIP program which is called Healthy Families. The
         Medicaid children’s expansion, administered by the Department of Health Services, is
         only a small portion of the State CHIP Plan in California. Medicaid eligibility was
         increased to 100 percent of FPL for all children up to age 19, 200 percent FPL for
         children up to age one, and 133 FPL for children up to age six, and benefits match
         those of traditional Medicaid recipients.

         Eligible children, whose family income is between 100 and 200 percent of the FPL,
         will be enrolled in the separate Healthy Families Program which is administered by a
         free-standing State Agency called the Managed Risk Medical Insurance Board
         (MRMIB). The Board also administers a small business and other health insurance
         programs for California. Benefits for children in the Healthy Families Program are
         modeled after private employer health plans and include required services, as well as
         mental health and substance abuse services, prescription drugs, dental, vision, home
         health care services, and durable medical equipment. Co-payments are required for
         some services, but are limited to $5. Families pay a monthly premium of $4 to $9 per
         child with a maximum of $27 per family.25

         Prior to the CHIP legislation a small private program called Cal Kids was available for
         uninsured children. This program, has a limited benefits package, yet continues to be
         available for undocumented immigrant children since no public funds are used.

         Of particular interest to this study is that both the Medicaid and Healthy Families
         Programs employ managed care for service delivery in all major population areas. The
         Medicaid Program has a “two plan” requirement currently operating in 12 of the 26
         counties where managed care is available. The two plans required in each service area


Federally Funded Health Centers and CHIP            19                                       OEI-06-98-00320
         are a commercial plan and a “local initiative” plan which must include traditional and
         safety-net providers such as health centers, county hospitals and county clinics. The
         Healthy Families Program uses a market-oriented approach which reduces the monthly
         premium to $4 for the “local initiative” plan in each service area, thus encouraging
         enrollment in those plans. A comprehensive methodology is used to weight providers
         based upon their actual experience in delivering services to low income children.

Health Center Background

         La Clínica de la Raza in Oakland (Alameda County) California is a medium sized health
         center, which served about 13,000 patients in 1997, and has been in operation over
         27 years. The health center consists of three clinic sites and two school-based health
         programs. The main clinic is located in a largely Latino area of Oakland. Another clinic
         site is located in an ethnically diverse area of Oakland and serves Latinos, African-
         Americans, Asians, and Africans. The third site is a teen clinic. Although the center
         is expanding its programs, over 600 families were on a waiting list for center services
         at the time of our visit, due to the large numbers of uninsured individuals in the area.
         Since 84 percent of the center’s patients are Latino or other ethnic groups, the health
         center employs many bilingual or multi-lingual staff. Children and adolescents comprise
         a significant portion of the patient population (about 54%).26 As described later, a full
         range of preventative and primary care services, as well as several specialty services,
         are provided to these children. We conducted our site visit in California early in the
         implementation of CHIP in September 1998.

Planning and Implementation

         La Clínica and the California Primary Care Association (CPCA) were actively involved
         in the planning and implementation of the Healthy Families Program. The Chief
         Executive Officer of La Clínica is currently Chairman of the CPCA. Largely through this
         affiliation, she and other health center directors testified in support of the program
         during the legislative process and later oversight hearings. The position of the CPCA
         was to support an expansion of Medi-Cal, the State’s Medicaid program, since the
         infrastructure was in place and the health centers were major providers for the Medi-
         Cal Program. However, those interviewed acknowledged that implementing CHIP
         solely by a Medicaid expansion was unlikely in California at the time the enabling
         legislation was passed due to the State’s preference for market-oriented programs.

         Since the formation of the Healthy Families Program, the CPCA has actively
         collaborated with the MRMIB on program planning and implementation. A health
         center director is on the MRMIB advisory panel and the CPCA frequently presents
         issues to the Board. One primary health center concern has been the inclusion of
         health centers in the provider networks of managed care plans which contract with the
         Healthy Families Program. In addition to the local initiative plans, the CPCA arranged
         for all health centers to be offered managed care contracts with Blue Cross, HealthNet
         and Omni where available. Another success for the health centers was obtaining a
         waiver from Vision Services Plan (VSP), the Statewide vision plan for Healthy Families.
         The waiver allows health centers to contract with VSP, when historically, it has

Federally Funded Health Centers and CHIP        20                                   OEI-06-98-00320
         contracted with provider-owned practices only.

         Remaining implementation concerns of the health centers include capitation rates for
         dental providers, cultural and linguistic competency requirements for health plans, and
         implementation of the Special Populations Project and outreach. Although a fee-for-
         service dental plan is available Statewide, several health centers have noted that they
         have been unable to obtain a fee-for-service dental contract and that the capitation
         rates offered by the managed dental plans are too low for health centers to participate.
         The CPCA has been working with the California Dental Association on this issue.
         Medicaid cultural and linguisitic competency requirements for managed care plans in
         California are considered to be good, and efforts are being made to strengthen
         requirements in the Healthy Families Program in line with the Medicaid requirements.
         The CPCA also expressed concern regarding the implementation of a State-funded
         Special Population Project, under Healthy Families, which they hope will include
         migrant farm worker clinics, although they have currently been omitted. State outreach
         resources are discussed in the following section.

Outreach for CHIP

         La Clínica de la Raza is actively engaged in outreach for Healthy Families and the
         Medicaid program. The health center has sponsored and participated in health fairs
         where information and applications for these programs were distributed. However, the
         major outreach activity of this health center is personal contact, via telephone, with
         families who are on the waiting list for health center services. The waiting list is due
         to the extensive need for services among the uninsured, although La Clínica continues
         to expand its capacity and clinic hours. Health center staff are working evening hours
         to telephone these families and notify them of the Medicaid expansions and Healthy
         Families Program, and to offer them assistance in completing applications.
         Unfortunately, due to the mobility of this population, many of the families no longer
         have the same telephone number. Nevertheless, contacting those recently placed on
         the waiting list has yielded a better response rate. Since our visit was early in the
         program, La Clínica knew of only three children served by their clinics who were
         enrolled in Healthy Families, although numerous applications were pending.

         The Community Health Center Network (CHCN), a local organization of health centers,
         is very active in outreach for the Medicaid and Healthy Families Programs. They have
         assisted the health centers in developing a patient database for use with letters, phone
         calls, and health center specific fliers explaining the new children’s programs.
         Community Health Network staff have also provided training to health center staff on
         the application process. Other local outreach activities, noted by CPCA, include
         distributing fliers in schools, malls, shopping centers, and daycare centers, and public
         service announcements and media releases.

         The most significant problem identified regarding outreach and enrollment is the fear
         among immigrant families with eligible children about whether receiving CHIP benefits
         will be considered a “public charge.” Public charge refers to Immigration and
         Naturalization Service policies regarding receiving legal immigration status and


Federally Funded Health Centers and CHIP        21                                  OEI-06-98-00320
         sponsorship of family member immigration. Such sponsorship may be precluded if
         someone is deemed a “public charge” due to receipt of public benefits.27 Additionally,
         in California, a State program which monitored ports of entry for immigrants returning
         to California has previously requested repayment of benefits, including Medicaid, for
         re-entry. This practice has been stopped, monies were returned by the Medicaid
         program, and the program was ended in April 1999.28,29 However, immigration
         attorneys throughout the State have advised immigrants not to sign up for any public
         benefits. Fortunately, on May 25, 1999, the INS issued a policy statement explicitly
         stating that receipt of Medicaid and CHIP benefits will not lead to a public charge
         designation, except for certain Medicaid nursing facility services.30 However, due to
         the lengthy period of policy ambiguity and the hesitancy of the Latino community to
         trust such pronouncements, it will take time to overcome this former barrier.

         Because of these issues, all California respondents said the “fear factor” among
         immigrant families is the primary barrier to outreach and enrollment of their eligible
         children. Enrollment numbers were lower than anticipated, at the time of our visit,
         particularly among Latino children.31 The application for Medicaid and Healthy Families
         only requests information regarding the child’s immigration status and assures that
         information provided is confidential. However, income verification requirements for the
         parents continue to raise concerns among these families. La Clínica and CHCN staff
         verified the reality of this fear among their patient populations, and were very
         concerned about the lack of a clear INS policy regarding Healthy Families and public
         charge when assisting families with applications. Even with a clear policy, they felt
         the “fear factor” would remain a problem until immigrant families start to trust the
         programs after observing families enroll their children without repercussions.

         Allocation of State resources and procedures for Medicaid and Healthy Families
         outreach has been controversial in California. The Medicaid program is responsible for
         outreach for both programs. Although the health centers strongly supported allocation
         of grants for outreach, the State’s approach is to pay $25 per completed application
         to those providing certified application assistance to families. Certification is obtained
         by completing a one day training on application assistance. This policy is intended to
         diversify the sources of outreach and application assistance. Some outreach money
         will also be allocated to counties and health centers which may be able to sub-contract
         for these resources.

         La Clínica and the CPCA felt that $25 was inadequate payment for application
         assistance due to the length and complexity of the joint application. The application
         booklet is 28 pages; however, this includes detailed program information, and
         worksheets for pre-screening for program eligibility. The application is available in 10
         languages. The CHCN director emphasized the increasing need for an eligibility
         assistance function at each health center; yet some centers lack the resources to do
         this. Another concern expressed by the health center and CHCN was the requirement
         that the first month’s premium be paid at the time of application by cashier check or
         money order, an inconvenience to many of the families applying for the program.

         After our site visit, the Medicaid program provided updated information regarding


Federally Funded Health Centers and CHIP         22                                   OEI-06-98-00320
         outreach resources. The application assistance reimbursement has been increased to
         $50. In fiscal year 1998/99 the State provided $1 million in mini-contracts to
         organizations and in fiscal year 1999/2000 the State recently released a Request for
         Proposals for $6 million in funds for outreach. Additionally, the State changed its
         policy that required the first month’s premium to be paid by cashier check or money
         order to also allow personal checks. In April 1999, a revised application was released
         which is only four pages long and which is available in 11 languages.

Health Center Services for Children

         Primary/Preventive Services

         La Clínica de la Raza offers a comprehensive range of primary and preventive services
         to children. Adolescent patients are also served at the health center’s Teen Clinic.
         Provided services include well-child care, immunizations, primary care for illness, pre-
         natal care and delivery, and a strong health education program which uses health
         promotion volunteers and community health workers. In addition to the two major
         clinic sites and the teen clinic, the health center operates two school-based clinics, one
         in an elementary school and the other at a high school. A major focus of the school-
         based clinics is prevention. At the high school, reproductive health education,
         parenting skills, dealing with peer pressure, and involving parents in health education
         programs are components of the prevention activity.

         Enabling and Specialty Services

         Preventive and community health workers conduct outreach, as well as health
         education, through a strong community health education program. In addition to health
         education, translation services are key enabling services provided by La Clínica de la
         Raza. The San Antonio clinic site is referred to as the International Clinic by health
         center staff. Languages spoken by patients of the health center include Spanish,
         Ethiopian, Chinese, and Korean, plus others. Most translation is provided through bi­
         lingual staff with occasional contractual assistance from a language center in Oakland,
         which also provides signing services for the hearing impaired.

         La Clínica also provides a sizeable range of specialty services to children. The health
         center has a mental health clinic which serves its patients, as well as referrals from
         other providers. Psychiatrists and psychologists are on staff and their mental health
         clinic has a contract to provide these specialty services for health plans. Staff noted
         that their clinic is the largest Spanish/English bi-lingual mental health provider in the
         area. Full vision services, including opthalmology, optometry and eye glasses, are also
         available at the health center. Individual providers from the health center have
         contracted with the Vision Services Plan as Healthy Families providers and the health
         center is expecting to secure a clinic contract as a result of the recent VSP policy
         change explained above.

         Dental services are provided by La Clínica at the main clinic site. A long waiting list
         for dental services has resulted in the health center giving children and pregnant


Federally Funded Health Centers and CHIP         23                                   OEI-06-98-00320
         women priority for services. The health center also partners with the Colgate
         toothpaste company three times a year to provide mass dental triage screenings for
         children. They have found that about one third of the children just need preventive
         services, another third require priority services, and the remaining third are in need of
         specialty intervention. The health center currently has five dental chairs, serving 800
         to 900, cases a month, and they plan to add five more chairs soon. The health center
         has a periodontist on staff and hosts an orthodontal clinic staffed by dental residents
         bi-weekly.

CHIP Readiness

         La Clínica de la Raza, and the local Community Health Network, have been in the
         forefront of California health centers ready for CHIP by virtue of their their proactive
         engagement in managed care. The Alameda Alliance Health Plan is the “local initiative
         plan” in Alameda County. It was formed under the two-plan model when the California
         Medicaid Program introduced managed care contracting. They were the first local
         initiative plan in the State, becoming operational in January, 1996. Community Health
         Center Network (CHCN) was formed as a Management Service Organization (MSO) by
         a 25 year old local association of clinics, whose member centers are key provider of
         primary care for the Alameda Alliance Health Plan. CHCN is the contracting entity for
         the health centers with this plan. When the Healthy Families Program was
         implemented, the Alameda Alliance was able to obtain reduced premium status based
         on having the most traditional and safety-net providers in their network.32 CHCN
         passes on primary care capitation to health centers which participate in CHCN and
         pays for specialist services from the remaining capitation funds.

         La Clínica management staff described several adjustments made by the health center
         in response to managed care. They are undergoing a re-design process, examining
         their administrative processes, health center procedures, staffing and management
         information system. Staff training has been an important component in adjusting to
         managed care. The health center is attempting to institutionalize training through
         regular staff meetings, video training tapes, and cross-training of front desk and billing
         personnel. Using a shared hand-held device purchased by CHCN, the health center has
         conducted waiting room surveys of their patient population to monitor satisfaction and
         reactions to changes in their operations.

         Clinic management has exerted considerable effort to involve clinical staff in decisions
         required by managed care. Changes implemented with clinician input include moving
         health education and psycho-social responsibilities from physicians and mid-level
         providers to nurses, health educators and social workers. Nursing staff, in particular,
         have been added. Additionally, the health center’s chief pharmacist has aggressively
         pursued pharmacy managed care contracts and drug price discounts.

         Business infrastructure improvements have also been made by La Clìnica and
         Community Health Network. Included are extensive revisions of their management
         information system. Since 1996 numerous software programming changes have been
         made to accommodate billing requirements, referral management and staff access to


Federally Funded Health Centers and CHIP         24                                   OEI-06-98-00320
         multiple databases. Discussions are also underway regarding consolidation of
         management information functions through CHCN to include joint purchase of new
         hardware and software. Shared services, also through CHCN, currently include payroll,
         auditing, laboratory and pharmacy contracts. The health center has hired additional
         administrative staff, including a patient omsbudsman, a managed care coordinator for
         credentialing and patient record audits, and more front desk staff. A managed care
         committee, consisting of health center staff, has been formed to address issues
         regarding the managed care contracts.

         Our interviews identified some reimbursement issues which pose challenges for health
         centers. The California Medicaid program sets interim rates for the health centers
         based upon their most recent cost reports and will continue to provide retroactive cost
         settlements until cost-based reimbursement is phased out according to Federal
         legislation. The Healthy Families Program does not use cost-based reimbursement,
         which leaves reimbursement rate negotiations up to health plans and their contracting
         health centers. In preparation for the phase-out of cost-based reimbursement, La
         Clínica has accepted full risk professional services capitation, excluding hospital
         services, to gain experience in managing finances for primary and specialty care for
         commercial patients. As mentioned earlier, inadequate dental reimbursement from
         managed dental care plans is also an issue raised by La Clínica and the CPCA for the
         Healthy Families Program. Because of the low rates, La Clínica has decided to only
         contract with the fee-for-service dental plan. CPCA is working with the California
         Dental Association to address this issue on a Statewide basis.

Key Factors for Success

         La Clínica de la Raza was identified to our study team as a health center which has
         been successful in early implementation of the CHIP program in California. Our
         interviews confirmed that the Community Health Center Network and the Alameda
         Alliance Health Plan are also in the forefront of traditional and safety-net managed care
         plans. In fact, they were the first to become operational in the State. Several reasons
         for this joint success are identified in this case study. Foremost of these elements of
         success is their proactive approach to entering the managed care market environment
         in California. A significant part of their approach has been partnering with the
         Community Health Center Network, negotiating provider contracts as a group instead
         of as individual health centers, accepting risk for specialty services as a group, and
         sharing services provided through CHCN. The Executive Director of La Clínica, when
         describing what makes an individual health center successful stated, “Networking. I
         don’t know ... how they could possibly survive outside of a network right now.”33

         Another aspect of La Clínica’s proactive approach to managed care is working
         extensively with their administrative and clinical staff to identify operational
         adjustments necessary for managed care work in their health center and involving the
         staff in the implementation of these adjustments. Examples of this include formation
         of an internal managed care committee, a commitment to staff training, and engaging
         in a re-design project. Expanding clinic hours and services, adding specialized staff
         with managed care responsibilities and realigning clínical staff responsibilities are also


Federally Funded Health Centers and CHIP         25                                   OEI-06-98-00320
         important adjustments which La Clínica has made.

         The largest challenge to successful participation in the California CHIP program for La
         Clínica and other health centers is overcoming the significant barriers to outreach and
         enrollment described earlier. Even after clarification of the public charge policy the
         “fear factor” for California’s immigrant population will be difficult to overcome.
         However, having close ties with their community and the trust of their respective
         patient populations positions the health centers as key allies for alleviating fears and
         reaching these children and their families.




Federally Funded Health Centers and CHIP        26                                  OEI-06-98-00320
            CHERRY STREET HEALTH SERVICES
                                     Grand Rapids, Michigan


State Model: Combines Medicaid expansions with a free-standing program. Inclusion of safety-net providers
in managed care not required, but default assignments of patients provide incentives to do so.

Center Highlights:
<      Hired an outreach coordinator instead of an eligibility worker to conduct off-site recruitment and
       application assistance and tracking;
<      Designated a managed care coordinator to oversee development of MIS system improvements;

Challenge: HCFA’s rejection of original reimbursement methodology forced return to cost-based settlements.
Original plan included payment for recent program expansions, so a cost-based approach puts such
programming at risk.



Michigan CHIP Model

         Soon after the enactment of the CHIP legislation, Statewide forums were held, starting
         in October, 1997, to gather input on a CHIP proposal. With strong administrative
         support for privatization of governmental services, a totally free-standing program was
         proposed, and a plan using this model submitted to HCFA in December 1997. When
         the State legislature convened in January 1998, the House held hearings on this plan,
         and discussions ensued regarding a combined approach of Medicaid expansions along
         with a free-standing program. As a result, legislation was passed in March 1998 for
         a combination Medicaid expansion/private model. HCFA approved the revised State
         plan in April 1998. Implementation of the program began in May, and Statewide
         implementation was completed by September 1, 1998.

         Income eligibility levels for the Medicaid expansion are set at 185 percent of the
         Federal Poverty Level (FPL) for infants up to one year of age. The remaining children
         up through age 18 are eligible for Medicaid if family income is less than 150 percent
         FPL. The free-standing program, called MIChild, covers children in families at and
         below 200 percent FPL who are not Medicaid eligible.34 Both the Medicaid expansions
         for children and the MIChild program permit continuous eligibility for 12 months.
         Community health centers are among a group of providers who are allowed to deem
         presumptive eligibility for children.

         The Medicaid program and MIChild use an enrollment broker, Maximus, to process
         applications and choice of managed care plans. For families who do not select a plan
         for their children, Maximus makes default assignments for Medicaid. Although
         Medicaid health plans are not required to include health centers in their provider
         networks, the bidding procedure grants points to plans who contract with these
         centers in the allocation of default assignments. The plan pays fee-for-service if there
         is no contract with an Federally Qualified Health Center in the county. The three plans


Federally Funded Health Centers and CHIP            27                                      OEI-06-98-00320
         with the highest points in each county receive default assignments. Other health
         plans in the county which are not among the top three in enrollments receive no
         default assignments. MIChild accepts any licensed HMO or PPO provider.

         Benefits for the Medicaid expansions are the same as the pre-existing Medicaid
         program. MIChild benefits were designed based upon the State employee benefit
         package and are fairly comprehensive, by including prescription drugs, vision, dental,
         and home health services, as well as durable medical equipment, but with limitations
         on some therapy services.35 Mental health and substance abuse services are provided
         separately through a carve-out from the health plans whereby the MIChild program
         contracts directly with community mental health programs.

Health Center Background

         Cherry Street Health Services, based in Grand Rapids, is a medium-sized health center
         which served over 17,000 patients in 1997. The health center operates six clinic
         sites, including school-based health clinics, in Grand Rapids and Kent County. The
         patients seeking care at Cherry Street clinics are ethnically diverse and include African
         Americans (30%), Caucasians (30%), Hispanics (15%) and 25 percent in other
         categories . About 10 percent of the patient population are estimated to need bilingual
         or translation services. The majority (54%) of patients seen at the health center are
         children. Although Cherry Street does not receive Migrant Health Center grant funds,
         they do see some children from migrant farmworker families at various sites during the
         three month crop picking season. As described later, the center provides a full range
         of preventive and primary care services, as well as several specialty services to these
         children. We visited Michigan in September 1998, very soon after CHIP implementation
         was completed Statewide.

Planning and Implementation

         Cherry Street Health Services was involved in the planning and implementation of
         MIChild and Medicaid expansions primarily through their Primary Care Association. The
         PCA members had extensive discussions within the Association regarding their support
         of Medicaid expansions over a free-standing CHIP program. Many assumed that the
         free-standing model was a given, but the PCA decided to support a Medicaid expansion
         because it had more comprehensive benefits and a pre-existing administrative
         structure. Since the Medicaid program had implemented managed care over a year
         before the passage of the CHIP legislation, provider networks and contracts were in
         place to serve a low income population through managed care plans, including one
         formed by the Federal health centers. When members of the legislature expressed
         interest to include a Medicaid expansion as part of the CHIP plan, the PCA worked
         with legislators and other advocates to realize its inclusion.

         Additionally, the health centers were represented at three or four State input forums
         regarding the original, free-standing plan submitted by the State. The PCA was also
         involved in meetings of a group of child health related agencies in Grand Rapids that
         commented on the State plan. When the combination plan for Medicaid expansions and

Federally Funded Health Centers and CHIP        28                                   OEI-06-98-00320
         the MIChild program was ultimately developed, the PCA informed member clinics of
         implementation activities. In addition, it provided outreach information that assisted
         the health centers in enrolling their children in the appropriate CHIP program.

Outreach for CHIP

         Cherry Street Health Services has actively engaged in outreach following the
         establishment of Medicaid expansions and MIChild. They have an outreach coordinator
         whose primary responsibility is to enroll children. Parents of its 2,400 self-pay children
         served by the health center were mailed a brochure explaining the program, eligibility
         requirements and how to apply. The center’s medical director has asked its providers
         to monitor child encounter forms for an indication of self-pay status so they can then
         inform parents about the programs and refer them to the outreach coordinator for
         application assistance. The outreach coordinator also tracks applications for families
         she has assisted with the process to ascertain eligibility status and/or need for
         additional documentation. At the beginning of the school year, the coordinator gave
         presentations during registration activities and distributed information and applications.
         The outreach coordinator also distributes information and applications at neighborhood
         picnics, church-sponsored health fairs, job fairs and other local activities. However,
         with six sites to cover, the center director noted that three or four outreach workers
         are needed, but that more staff resources aren’t available. This is, in part, due to the
         uncertainty regarding the amount of cost-based reimbursement which they would
         receive and the lack of supplemental CHIP funds being allocated to them.

         The Medicaid and MIChild programs have also conducted outreach activities on a
         Statewide basis. Although these programs accepted applications in July 1998 the
         “kick-off” press conference was held in late August after changes to the original
         application forms were made. Radio and television advertisements were being aired
         by September when we visited, and plans were announced to send applications to all
         schools. Additionally, regional contracts for outreach activities were initially granted
         only to “multi-group collaborative bodies”, which are county-based groups largely
         composed of governmental agencies. Some health centers are involved in these
         groups, but many are not. The health center and PCA expressed concern about
         restricting outreach contracts to these groups, since Federal health centers are not
         members of these groups in some areas. Shortly before our visit, the State program,
         in an effort to increase enrollments, issued a request for proposals for 30 more
         outreach contracts, for which health centers would independently be eligible.
         Applications for the MIChild program were accepted throughout the remainder of the
         year after April 1998 and in 1999. However, beginning in 1999, re-enrollment after
         failure to pay premiums will only be accepted during three open enrollment periods.

         Although health centers are allowed out-stationed Medicaid eligibility workers to deem
         presumptive eligibility, Cherry Street had not yet implemented this option. Since the
         health center would need to pay half of the eligibility worker’s expense they decided
         to employ an outreach coordinator as a member of their staff. The PCA director said
         health centers were wary of presumptive eligibility. They would receive capitated
         payments for the presumptive period, regardless of the final eligibility determination of


Federally Funded Health Centers and CHIP         29                                   OEI-06-98-00320
         the child. However, if a child was initially sick and needed significant care, their costs
         would exceed capitated revenues if the child was subsequently deemed ineligible and
         these costs would be assumed through the HRSA grant resources, as though
         uninsured.

         The health center and PCA directors also expressed concerns regarding some
         administrative problems with the enrollment broker for both Medicaid expansions and
         MIChild. One problem cited by the health center’s managed care plan was that, at the
         time of our September site visit, the enrollment broker has been unable to transfer
         enrollment information to the health plans electronically. Updated information, after
         our site visit, indicated that electronic transfer of MIChild eligibility verification became
         available in October 1998 and an electronic bulletin board became operational in
         February 1999. Prior to October 1998, the health center indicated they expended
         considerable time on confirming program eligibility. Finally, although a short, four
         page, application form is being used, it has been revised three times since its inception,
         which has caused some confusion and delays.

Health Center Services for Children

         Primary/Preventive Services

         Cherry Street Health Services offers a comprehensive range of children’s primary and
         preventive services, including well-child care, acute care, immunizations, prenatal care,
         family planning, and pharmacy services. The health center also has a Women, Infants,
         and Children nutrition program on-site. Services are provided at the six clinic sites, a
         school-based health clinic, and through a traveling school health program serving 16
         schools. The traveling program offers medical and dental screening to students. The
         health center has one part-time pediatrician on staff. Most providers are either nurse
         practitioners or family practitioners.36

         Enabling and Specialty Services

         Health education is a significant enabling service provided by the health center. For
         pregnant women they provide a State-funded program of maternal support services
         which focuses on health education, coupled with case management and home visits.
         Bilingual providers and translation services are available to non-English speaking
         families by two physicians and a number of medical assistants, all of whom speak
         Spanish. Other enabling services provided by the health center include eligibility
         assistance, case management, housing assistance, outreach and some
         transportation.37

         The health center also provides several specialty services to their patients. The center
         has a sizeable dental program consisting of five dentists, three hygienists, and ten
         assistants, aides and technicians. Mental health services are also provided at the clinic
         sites and mental health referrals for Medicaid and MIChild are available through
         community-based mental health providers. Limited vision services are also offered by
         the center.


Federally Funded Health Centers and CHIP          30                                     OEI-06-98-00320
         Although still early in program implementation, the health center has begun to see
         MIChild eligible children assigned to their clinics. At the time of our site visit, 53
         children from the health center had been enrolled in MICHILD, and 123 had become
         newly eligible for Medicaid. However, the director is concerned about Cherry Street’s
         ability to maintain its current range of services, largely due to decreases in the numbers
         of families assigned to them with Medicaid coverage. This is, in part, due to
         competition for Medicaid patients as managed care was implemented in Michigan.
         However, the total Medicaid caseload Statewide has declined due to the effects of
         welfare reform. The center director noted that the total number of patients seen by
         the health center is not decreasing but that more families are now served under the
         self-pay, sliding fee category which is dependent on grant funds.

CHIP Readiness

         When the Medicaid program began implementing mandatory managed care, Cherry
         Street Health Services joined a health center-owned and directed managed care plan.
         This plan, Community Choice of Michigan (CCM), was formed through efforts initiated
         in 1995, when a group of health centers obtained a HRSA Integrated Service Network
         Initiative grant. With the Medicaid program moving towards managed care, these
         health centers decided that creating their own health plan would best serve their
         patients’ interests. To assure involvement in plan decisions, particularly those regarding
         adequate reimbursement and maintenance of clinic enabling services, health centers
         invested $22,000 each and obtained a seat on the Board of Directors. Since Michigan
         phased-in its managed care program by counties, Cherry Street was not initially in
         CCM when the plan became operational in 1996. However, they joined the plan as
         Medicaid managed care was implemented in the Grand Rapids area.

         With the advent of Medicaid managed care, the health centers and CCM needed to
         address the issue of how cost-based reimbursement was going to be handled by the
         State. Initially, the Medicaid program thought managed care plans would place
         capitation bids which incorporated the higher reimbursement for the health centers,
         and then reflect this in the fees paid to the centers. However, the plans did not
         include these higher fees in their bids, and health centers feared this created
         disincentives for plans to work with them. The health centers, then, as a group,
         negotiated a memorandum of agreement with the Medicaid Program whereby the
         managed care plans would reimburse health centers at market rates, and the Medicaid
         program would supplement these payments38. The supplemental payments were
         based upon the 1996 cost reports, with an inflation factor of 15 percent for 1998 and
         1999. The agreement also allowed health centers to be paid for service expansions
         planned prior to the 1997 date of the agreement. Also, health centers could assume
         risk in their managed care contracts. Thus, they could realize gains from savings, and
         lose revenue for excess costs.

         However, the HCFA informed the Medicaid program that this reimbursement
         methodology was not acceptable under the Balanced Budget Act of 1997 (BBA), and
         they would need to return to cost-based settlements. Returning strictly to cost


Federally Funded Health Centers and CHIP         31                                   OEI-06-98-00320
         settlements would negate any gains or losses from accepting risk. Additionally, under
         cost settlements, Cherry Street Health Services would not receive payments for their
         expansions already made. The health centers, their PCA and Michigan Medicaid have
         protested HCFA’s ruling, and a final determination on this issue was pending at the
         time of our visit. The outcome of this reimbursement issue was expected to have
         significant impact on the health center’s ability to adjust to managed care risk
         assumption, once cost-based reimbursement is phased out as required by the BBA,
         because they would have no Medicaid experience with capitated reimbursement.
         Cherry Street also anticipates a need to retreat from service expansions already
         underway if the Memorandum of Agreement is ultimately nullified by HCFA.

         Cherry Street and CCM noted several adjustments being made by health centers to
         facilitate their viability in a managed care environment. The director of Cherry Street
         stated that, as their participation in managed care evolved, they had become more
         “thirsty for Medicaid encounter data”. CCM provides them with their financial reports
         with costs, broken out by services and providers, as well as considerable education
         during their board meetings on how to use this information. CCM indicated that two
         of the most financially successful health centers in their plan had each hired a staff
         person with managed care experience to monitor financial aspects of managed care
         contracts. Cherry Street had designated one staff member as a managed care
         coordinator who was being educated to oversee this component of the center’s
         operation. The center also was considering adding a referral coordinator, if resources
         allowed.

         Another significant area of needed adjustment was in management information.
         Although Cherry Street had not yet invested in new hardware or software, the director
         indicated he was assessing their technical needs in this area. The PCA noted that 14
         of their health centers now contract with a common software company and that this
         vendor had recently dedicated a staff person to support the Michigan health centers.
         The Medicaid staff we interviewed reiterated that good information systems and
         business managers were critical to health center viability in the new managed care
         environment.

Key Factors for Success

         Cherry Street Health Services has made a concerted effort to enroll children in
         Medicaid expansions and MIChild. Although the director indicated that they would like
         to do even more outreach if resources were available, this health center has clearly
         made CHIP/Medicaid outreach a priority. They demonstrated this by dedicating staff
         to this effort, informing their providers about the program, involving them in referring
         families to the outreach coordinator for application assistance, and by conducting a
         major mail outreach to their self-pay families with children. The health center is also
         making an effort to track the processing and outcome of these applications to ensure
         that applications needing follow-up don’t “fall between the cracks.” Due to welfare
         reform, their loss of patients previously covered by Medicaid is presenting financial
         challenges for the health center. This reinforces their need to enroll many of these
         children who then become eligible for Medicaid expansions or MIChild coverage. The


Federally Funded Health Centers and CHIP        32                                  OEI-06-98-00320
         school health program operated by the health center reaches over 16 schools and
         provides an opportunity to achieve this goal. The State programs have shown intent
         to partner with the health centers in this effort by issuing a request for proposals for
         outreach contracts with them.

         Cherry Street has also partnered with several other health centers in the State in joint
         ownership and development of a managed care plan. This has required considerable
         effort to learn the business of managed care, as well as a willingness to accept
         financial risk for primary care patients. They have designated a staff member as a
         managed care coordinator and indicated desire to add a referral coordinator as well.
         As part of their managed care strategy for Medicaid, these centers negotiated an
         agreement for a modified version of cost-based reimbursement with the State, which
         incorporates some risk assumption, to facilitate the transition from cost-based to
         capitated reimbursement for services, although the agreement has not yet been signed.
         Several people we interviewed said that making the transition to capitation would be
         a major challenge if they were not allowed this intermediate step.




Federally Funded Health Centers and CHIP        33                                  OEI-06-98-00320
                        PLAN DE SALUD DEL VALLE
                                           Fort Lupton,Colorado


State Model: Opted for a freestanding CHIP program only, in keeping with preference for privatization.

Center Highlights:
<      Developed managed care experience prior to CHIP, through formation of an MCO, with 8 other
       centers and a safety-net hospital;
<      State hopes investment in the design/implementation of an on-line enrollment/eligibility determination
       system will compensate for the initial lack of direct funding for center outreach;
<      Capacity issues may arise since State funding levels will only cover half of the children estimated to
       be CHIP eligible;

Challenge: Existence of a prior indigent care program, which also serves children and charges lower
copayments and no premiums for many of the same services offered through CHIP. Families tend to stay
in the old program until catastrophic illness requires CHIP benefits. A much lower reimbursement schedule
for services under this older plan, adversely impacts center revenues.



Colorado CHIP Model

         Early to recognize unmet healthcare needs of their citizens, Colorado had already
         instituted, prior to CHIP legislation, a State-only health insurance program. A specific
         children’s coverage program, named the Child Health Plan (CHP) was also formed. The
         State was planning an expansion of this CHP program prior to passage of CHIP. With
         design teams far into the development phase of the program, the State made
         alterations to comply with CHIP requirements, thus allowing Colorado to submit a plan
         to HCFA quickly. When we conducted our site visit in September 1998, the program
         had been operational for several months.

         As allowed under the Federal law, Colorado developed a freestanding program, called
         Child Health Plan Plus (CHP+), which is administered by the Office of Program
         Development. Operated by a separate office, the Medicaid program shares the same
         oversight agency as CHP+, the Colorado Department of Health Care Policy and
         Financing. Most interviewees describe Colorado as a fiscally conservative State, which
         operates under taxing and spending limits imposed by voters. They related the
         apprehension of legislators about expanding entitlements, preferring instead to design
         a program which closely mirrors private sector health insurance. Consistent with the
         State’s philosophy, the enabling legislation requires that many CHP+ functions be
         privatized. The oversight agency is required to issue contracts for outreach and
         eligibility enrollment. This does not preclude the use of contractors already doing
         similar work for Medicaid, but activities must be coordinated as a separate office.

         The Medicaid children’s program, titled Baby Care Kids Care, covers children in families
         with income up to 133 percent of the Federal poverty level (FPL) through age 5. For
         ages 6 through 15, the eligibility drops to 100 percent FPL.39 The separate CHP+

Federally Funded Health Centers and CHIP             34                                        OEI-06-98-00320
         program covers children, up to age 18, in families with income up to 185 percent FPL
         who are not Medicaid eligible. Premium payments are waived for children with family
         incomes under 100 percent FPL, while those with families above 100 percent FPL are
         on a graduated premium schedule.40 Some income levels are also assessed co­
         payments for office visits. The omission of dental coverage and limits on mental health,
         and all therapies (physical, speech, vocational) distinguish it from Medicaid’s full
         benefit package.

Health Center Background

         Plan de Salud del Valle health center in Fort Lupton, Colorado is a large center with
         nine service delivery sites. Salud served nearly 33,000 individuals in 1997.
         Surprisingly, although over 60 percent of their clients are Hispanic, the center reports
         only 14 percent of its patients require bilingual services or language interpretation.
         Nearly half (46%) of the center’s patient population are children and adolescents. The
         center has been an owner/provider within the Colorado Access health network, a non-
         profit HMO providing a comprehensive medical plan for low-income individuals, since
         Colorado Access was formed in 1995. Salud health center provides a full range of
         preventative and primary care services as well as a wide array of enabling and
         specialty services. These will be discussed in greater depth later.

Planning and Implementation

         During the design phase, Plan de Salud de Valle health center had both direct
         representation on planning committees, and was also represented by their PCA on all
         committees. Salud and its PCA had favored a Medicaid expansion from the beginning,
         but felt that the State political climate prevented that option from being fully explored.
         Although the PCA director felt that 50 percent of the resultant program was due to
         PCA involvement, the Salud center viewed its impact on the final CHP+ product as
         minimal. For example, although the center’s dental director sat on the benefits
         committee, he was disappointed when dental care was not made a part of the CHP+
         benefits package, except in emergencies. Currently, the State is exploring whether it
         can afford to add a dental benefit.

         Although they utilize their PCA for advocacy, Salud has also joined with other health
         centers, using non-federal dollars, to hire a representative for the PCA to present their
         interests before the State Legislature. Believing that representatives were unaware of
         the extent to which their constituents were served by health centers like Salud, they
         perceived additional representation as necessary for survival in the current
         environment.

         Implementation of CHP+ has led to interface issues with the Colorado Indigent Care
         Program (CICP), since the onset of CHP+ did not mark the end of this pre-existing
         program. Covering both children and adults, the earlier CICP plan was intended to
         become more of an adult program as eligible children enrolled in CHP+. In the CHP+
         program, beneficiaries are likely to be faced with higher premiums and co-payments
         than their co-payment for services under the CICP. For example, under CHP+, a family

Federally Funded Health Centers and CHIP         35                                   OEI-06-98-00320
         of four at the maximum eligibility (185% FPL) would pay $30 a month in premiums and
         a $5 co-payment per office visit.41 In contrast, under the CICP plan, they would only
         be responsible for co-payments.

         The health center predicts many families will elect the CICP for children’s services
         during periods of good health, and enroll in CHP+ only when significant health
         problems emerge. At that point, most serious illnesses are likely to be referred out, so
         that specialists will benefit from CHP+ reimbursements, not the health center. The
         financial impact of this scenario on a center like Salud could be great as CICP costs are
         largely assumed by the clinic.42 The double effect is to reduce the Federal funds the
         center would receive under CHP+, as well as the pool of funds available to their adult
         population under the CICP. Additionally, Salud fears that the State will try to reduce
         funds to the CICP, proportional to eligible CHP+ children, in order to fund some of its
         financial commitment to CHP+. The end result would be an overall reduction in total
         dollars spent on health care for the underserved in Colorado. There was no indication
         that the State planned any redesign of the child segment of CICP or CHP+ to prevent
         these conflicts.

         As CHP+ enrollment increases, capacity issues may arise since the program was not
         funded to the level which qualifies for the maximum Federal dollars available. The PCA
         estimates that approximately 50,000 of the children they serve will qualify for CHP+,
         while the State currently has appropriated money to cover only 25,000. If such
         numbers were to enroll, any additional children above the 25,000 threshold would have
         to be placed on a waiting list until space or additional funding became available.

Outreach for CHIP

         Salud health center receives no money from the State for outreach activities. As a
         result, they have no formal outreach program, but do attempt to enroll children when
         they access services in their clinics. The center views the CHIP expenditure limit of 10
         percent for administration and outreach as inadequate for financing additional outreach
         activities. The State has allocated some resources to the development of brochures
         and literature promoting the program. In addition, Colorado heavily invested in an online
         eligibility/enrollment process which, at the time of our visit, was not yet operational.
         A pilot project of approximately 40 sites, not all health centers, was scheduled to
         come online shortly. Once operational, a site would receive a negotiated fee, from the
         contractor developing the system, for each Internet enrollment application completed.
         Realizing that getting every health center online may require some capital investment,
         Colorado has instituted the Essential Community Provider Grants program. The program
         will allocate grant funds to those essential providers in need of software, networking
         capability, infrastructure improvement, or direct services.

         While only a few health centers currently are permitted to determine eligibility and
         receive compensation for it, all centers assist clients in completing and submitting
         enrollment applications to the State. Although Colorado prefers enrollees to fill out the
         applications themselves without center assistance, Salud observed that the low
         literacy level of many applicants prevents them from completing applications

Federally Funded Health Centers and CHIP        36                                   OEI-06-98-00320
         independently. The original State plan classified all health centers as high-level
         eligibility determination sites which would receive training and be paid for application
         assistance based on a fee schedule negotiated by the contracted vendor and the
         center. Unfortunately, continuous mistakes by one health center resulted in the State
         not designating all centers as eligibility determination sites. Rather, Colorado has issued
         a Request for Proposals under which centers may apply to become an eligibility site.
         If chosen, a center would receive training at only one site, regardless of how many
         service locations they may have. Salud health center is a member of the PCA along
         with 14 other health centers for a total of 85 sites. At the time of our interview,
         between 3 and 5 of those 85 sites (none from Salud) had been trained to do high-level
         eligibility determination and were the only sites receiving reimbursement for enrollment
         activities. The PCA viewed this limitation on eligibility determination and lack of
         compensation as a serious problem in need of correction. Since our site visit, the PCA
         provided new information that they and the State program are conducting training
         sessions around the State to assist health centers in becoming CHP+ eligibility sites.

         Issues of eligibility determination are compounded by the lack of presumptive eligibility.
         Neither CHP+ nor the Medicaid program currently has this feature. However, planners
         are currently trying to expand presumptive eligibility for the Medicaid plan which
         currently extends only to pregnant women. Both programs allow continuous eligibility
         for 12 months before requalification is necessary.

         With health centers as the most common point of contact with potential CHP+ or
         Medicaid enrollees, clinics can complete an application with the client for the program
         for which they appear to be eligible. Yet, unless the clinic is one of the few high level
         eligibility determination sites, they must wait for the State to determine eligibility. At
         the time of our visit, this process was taking between seven and eight weeks.
         Updated information indicates that the processing time has been reduced to about one
         week. In the meantime, confusion occurs over whether and how to bill for those
         services which the client uses. Since CHP+ and Medicaid reimbursements are
         different, and the CICP program is based solely on co-payments, whether or not to
         charge fees at the time of service, and where to bill services while the client’s
         eligibility is being determined for a specific program become issues.

         Concern was also expressed regarding the impact of CHP+ on the children of migrant
         workers engaged in seasonal farmwork. While the Federal statute doesn’t require a
         Social Security number from a CHIP applicant, Colorado’s addition of this requirement
         on the joint CHP+/ Medicaid application is viewed as a barrier to the enrollment of
         migrant children. Most parents can obtain the necessary documentation, but either
         they don’t carry it with them, or they have little motivation to produce it. Even when
         an application is completed, the slow eligibility determination often insures that by the
         time they are approved, clients will most likely no longer reside within the State.
         Whether these families are aggressively seeking to enroll in CHP+ is unclear. However,
         in Salud’s view, every eligible, but unenrolled, child they treat forces them to divert
         scarce resources away from other uninsured persons.




Federally Funded Health Centers and CHIP         37                                    OEI-06-98-00320
Health Center Services for Children

         Primary/Preventive Services

         Salud health center provides a full range of primary and preventative care to the
         children they serve. Considering themselves primarily as a maternal and child health
         clinic, the center provides comprehensive care from pregnancy diagnosis through well-
         child and ill-child care. Salud maintains the goal of providing a majority of their care to
         patients under the age of 21. Currently, with 53 percent of patients age 21 and under,
         they seem to be reaching their goal. The center is, however, also a full-service family
         clinic. Fearing compartmentalization of care, Salud employs just two pediatricians, and
         prefers that most of their physicians be family practitioners. Other primary and
         preventive services include Women, Infant and Children (WIC) nutrition services, full
         prenatal and delivery services, and family planning. Migrant worker clinics are also
         operated by the health center on a seasonal basis.

         Enabling and Specialty Services

         Salud is able to provide enabling and specialty services in addition to their primary care
         offerings. Although they lack funding for translation services, the center tries to hire
         bilingual staff, when possible, to better serve their majority Hispanic population.
         Colorado Access, the managed care network of which Salud is a part, also has
         providers who speak Russian and Vietnamese. Regular transportation is not provided
         by Salud’s managed care organization, and they admit this is an issue, especially in
         rural areas. However, limited reimbursement forces them to offer transportation only
         on an emergency basis. Additional enabling services provided by the health center
         include eligibility assistance for public programs, case management, health education,
         and outreach.

         Plan de Salud de Valle continues to offer limited mental health care, as well as on-site
         dental services. An agreement with a county behavioral health provider provides a
         psychologist at one site. Although a similar agreement in another county was
         discontinued, the psychologist has decided to continue working on a pro bono basis.
         Thus, two sites are able to offer mental health services. Dental services are provided
         at the clinic sites and at schools, Head Start programs, and migrant centers. Children
         are given priority for dental appointments, since the need for these services at the
         health center exceeds current capacity.

CHIP Readiness

         Having already participated in the formation of a managed care organization, Plan de
         Salud de Valle was well-positioned to deal with the implementation challenges of
         CHP+. Predicting that Colorado would move to Medicaid managed care, nine Federally
         qualified health centers, including Salud, joined to create the Colorado Community
         Managed Care Network (CCMCN). CCMCN then organized in conjunction with 3
         hospitals and a physician’s group to form Colorado Access. A private, non-profit HMO,
         Colorado Access began operations in December 1995 with 17,000 enrollees on the

Federally Funded Health Centers and CHIP         38                                    OEI-06-98-00320
         first day. Their goals included retaining the Medicaid population, using any surpluses
         to serve the medically indigent, and ensuring that safety net providers remained viable.
         Since its formation, Colorado Access has spread from 12 to 28 counties within the
         State and continues to look for areas of expansion. Salud operates as a provider
         contracted to the Colorado Access HMO.

         Having taken a proactive approach to managed care early on, Salud did not find it
         necessary to make significant operational changes to accommodate the CHP+
         program. Determining their business infrastructure system to be adequate, the center
         only cites the need of an MIS manager to maximize their information capabilities. Since
         the new Community Health Center grant adds the MIS manager as part of the staff,
         Salud will be able to add this position. In addition, they are participating in a pilot
         project sponsored by the Federal government to test the Physician Service Practice
         Analysis software. Developed by a managed group medical association, it is a cost
         accounting software for health services which is heavily used in the private sector. The
         project is assessing its conversion for use in community health centers.

         With five other managed care organizations approved under the CHP+ plan, Colorado
         Access is not the sole managed care provider. However, their ability to garner 1,000
         of the 1,300 total CHP+ enrollees, at the time of our visit, attests to the effectiveness
         of the network they already had in place. A significant entity within Colorado Access,
         Salud estimates that between 400 and 500 of the network’s CHP+ enrollees are
         patients of its own clinic system, while they speculate that several thousand more are
         eligible. The center expressed concern regarding the possibility that with more provider
         networks available, enrollees might seek out private physicians due to perceptions that
         private care is better, and if their insurance status changes, return to Salud. The net
         effect is a rise in the number of uninsured patients at the centers. Under such
         circumstances, the center will lose capitated funds for patients while they are insured,
         yet become liable for the cost of treating them when, and if, their coverage status
         changes. Although this has not occurred on a widespread basis, Salud has observed
         this shift in one county where it has provider sites.

         Under CHP+ managed care, Plan de Salud de Valle health center has not experienced
         the reimbursement problems it did under the old Child Health Plan (CHP).
         Reimbursement was provided on a capitated basis, with some services “carved out”
         on a fee-for-service schedule. Due to delayed eligibility determinations and a slow
         payment system, the center would often go three to four months without receiving
         checks from CHP. The CHP+ plan is also capitated, but with the managed care
         organization rather than the center. Each managed care organization then, contracts
         with their providers independently. In the case of Salud, Colorado Access is giving
         them the same cost-based, fee-for-service they would receive under Medicaid. In
         addition, as an incentive to keep costs low, Colorado Access receives a designated
         premium from the State with the agreement that funds left over will be equally divided
         between themselves and Salud.

         The choice to operate a freestanding commercial program has presented an
         unexpected issue in regard to vaccines. Health centers receive highly reduced prices


Federally Funded Health Centers and CHIP        39                                   OEI-06-98-00320
         for vaccines from pharmaceutical companies for Medicaid and the uninsured, but
         cannot use those under the freestanding CHIP program per Federal regulation. The
         State’s original capitation rate did not include these vaccines, so now they are trying
         to incorporate them into a new capitation rate. In the meantime, health centers are
         unclear about the reimbursement of cost for vaccines under CHP+. 43

Key Factors for Success

         Plan de Salud de Valle’s previous affiliations with managed care appear to have been
         of great benefit as they made the transition to CHP+. Having already worked with
         other member providers for years, the CHP+ program was more like an add-on than
         a new enterprise, which allowed their managed care network, Colorado Access, to sign
         up more CHP+ members than the other five networks combined. Salud has been
         particularly successful, since nearly a third (between 400 and 500) of the initial CHP+
         enrollees Statewide reside within the Salud clinic system. With its emphasis on safety
         net viability, Colorado Access continues to work to insure its market share, and look
         for areas in which to expand.

         Prior to CHP+, the health center had proactively upgraded its business infrastructure.
         Approval of a MIS director position will further enhance their capability to manage the
         complex information needs associated with managed care. The progress they have
         made in this area is evidenced by their participation in the test pilot for service analysis
         software being sponsored by HRSA.

         The simultaneous operation of the CICP program along with CHP+ remains a challenge
         for Salud and its financial future. They predict the CHP+ premiums and co-payments
         to be significant barriers to new members who have been accessing services under the
         co-payment only CICP plan. Like other insurance programs, the success of Colorado
         Access under CHP+ depends upon a sizeable pool of members paying premiums over
         time so that adequate funds will exist to cover care costs. If Salud’s clients opt to
         utilize the CICP for general care, the center will be responsible internally for the
         majority of costs incurred under the CICP plan and forgo potential CHP+
         reimbursements for the same care. Yet, even if the centers are able to overcome the
         resistance of clients to convert to the CHP+ plan, the current financing limits to
         25,000 CHP+ enrollees, set by State appropriations levels, are likely to present a new
         barrier to success.




Federally Funded Health Centers and CHIP          40                                    OEI-06-98-00320
                          FAMILY HEALTH CENTERS
                                 Orangeburg, South Carolina


State Model: Medicaid expansion with a voluntary managed care element. Providers may participate in an
HMO or one of two managed care alternatives tailored for the State’s rural areas.

Center Highlights:
<      Enrollment barriers avoided with a one-page, mail-in application, and adherence to a maximum 5-day
       processing period;
<      Established and funded, with other centers, a Managed care corporate structure, should managed
       care become mandatory;
<      Effective mode of outreach through expansion of school-based health programs;

Challenge: Previous periods of capped reimbursement rates resulted in significant funding reductions to the
center. While temporary, these periods raised concern over the approaching permanent phase-out of cost-
based reimbursement.



South Carolina CHIP Model

         Prior to the Federal enactment of the CHIP legislation, the Governor of South Carolina,
         in February 1997, announced an initiative called Partners for Healthy Children, which
         aspired to provide health insurance to 50,000 additional children. With support from
         the legislature and private businesses, planning for a Medicaid expansion for children
         occurred as Congress deliberated the Federal legislation. The South Carolina
         Children’s Hospital Collaborative provided $3 million in matching funds for the
         expansion which, together with an appropriation by the General Assembly, allowed
         South Carolina to start accepting applications under the expanded eligibility rules on
         August 1, 1997. Because of its early start, South Carolina became the second State
         to have a CHIP plan approved, with Colorado being approved earlier on the same day.44
         With the enhanced Federal matching rate provided by CHIP, the estimated number of
         newly eligible children expanded to 75,000. We conducted our site visit to South
         Carolina in September 1998 when their CHIP Medicaid expansion had been in operation
         several months.

         South Carolina selected a Medicaid expansion model only for children whose family
         income is up to 150 percent of the Federal poverty level (FPL). These children receive
         all standard Medicaid benefits including Early Periodic Screening, Diagnosis and
         Treatment (EPSDT). Instead of instituting mandatory managed care, the State Medicaid
         program, in addition to its health maintenance organization option, developed two more
         voluntary managed care options tailored to the rural nature of the State. The first of
         these, called Physicians Enhanced Program (PEP), is a primary care capitation
         arrangement whereby physicians and health centers can contract for a bundle of
         primary care services, paid for by a monthly capitated fee. In this option, the primary
         care provider serves as a primary care case manager and must arrange referral services


Federally Funded Health Centers and CHIP            41                                       OEI-06-98-00320
         for patients. The other option, called Healthy Options Program (HOP), is a model
         where the primary care provider agrees to serve as a “medical home” for the patient.
         For an enhanced office visit payment rate, the provider is available on-call to his/her
         patients and coordinates their care. However, this model does not include capitation
         or mandatory referrals for specialty care45. South Carolina has implemented
         continuous eligibility for 12 months, which should assist the process of establishing
         medical homes for children46.

Health Center Background

         Family Health Centers in Orangeburg, a large center located in a rural area of the
         State, served about 36,000 patients in 1997. The health center consists of one main
         clinic, six satellite offices, and school-based clinics which operate at four locations.
         The health center director noted that expansion of their school-based program has been
         a priority in recent years. Due to this emphasis on school-based health care, over 43
         percent of the center’s patients are children and adolescents. This is the highest
         percentage of children served among all the Federal health centers in South Carolina.
         Overall, the health center population is 82 percent African-American.47 The main clinic
         provides a comprehensive range of preventive and primary care, as well as pharmacy
         and dental services. Additionally, for three months during the peak harvest season, the
         health center conducts outreach to migrant workers and provides services through use
         of a mobile clinic owned by the Medical University of South Carolina.

Planning and Implementation

         Family Health Centers and the South Carolina Primary Care Association (PCA) reported
         some minor involvement in the planning and implementation of the Medicaid expansion
         for children. Legislative hearings were held in locations across the State, and
         testimony was provided by health centers in support of the expansion. The health
         centers were in agreement with the decision to implement CHIP by expanding the
         Medicaid program, since this provided the fastest and administratively easiest
         approach. The PCA member health centers considered pushing to expand income
         eligibility to 200 percent of the FPL. However, when the health centers examined their
         patient demographics, only small numbers of children came from families in the 150
         percent to 200 percent income range. Therefore, the Association did not press this
         issue. PCA staff indicated that implementation of the expansions had proceeded fairly
         smoothly with no major issues emerging.

Outreach for CHIP

         South Carolina has enrolled over 50,000 of the projected 75,000 children newly
         eligible for Medicaid in the first year.48 This exceeded the State’s initial goal of 37,500
         for the first year of the program. To facilitate enrollment, the Medicaid program
         developed a one-page (two-sided) mail-in application form. Rather than using
         presumptive eligibility, they committed to processing eligibility applications within five
         days of receipt. Health centers have been a part of the State outreach effort.



Federally Funded Health Centers and CHIP         42                                    OEI-06-98-00320
         Family Health Centers is serving as a site for an outreach demonstration project with
         the Medicaid program for targeted outreach activities. The center provided a list of all
         their uninsured children to the Medicaid office. Letters notifying the family of the
         expansions, with a mail-in application enclosed, were then sent by the Medicaid
         program. Of over 2,000 applications mailed only about 130 were returned. The health
         center director felt that a letter directly from the health center might have been more
         effective because of its relationship with the families and their ability to assist families
         in completing the applications. Beyond this project, Family Health Centers has an
         outstationed Medicaid intake worker at their main clinic to assist fee-for-service
         families with newly eligible children in completing applications for the Medicaid
         program. The center’s community health workers at the school-based clinics are also
         engaged in outreach activities.

         Schools were also the focus of Statewide outreach efforts. When the expansions
         were implemented in August 1997, the Medicaid program sent applications to all
         districts at the beginning of that school year. The number of submitted applications
         tripled to over 300 per week shortly after this mail-out. In addition to the health
         centers and schools, the State distributed applications to physicians’ offices,
         pharmacies, hospitals and child care centers throughout the State. Partnerships were
         also formed with the Baptist Convention, the African Methodist Episcopal Church and
         numerous other community groups to distribute applications through their networks.

         Even with the efforts described above, health center and PCA staff felt more outreach
         was necessary. The health center director felt without supplemental resources, centers
         should view these activities as short term investments with long-term payoffs. In
         particular, she emphasized the value of working with schools, since the health centers
         have established relationships there. The PCA director emphasized that families’ trust
         for their health providers is a significant factor in successful outreach, making health
         centers ideal focal points. She noted that the rural culture of South Carolina is more
         responsive to information provided by local people and organizations than Statewide
         initiatives. The ability of health centers to discuss the program with families and assist
         them with applications is critical in her view.

         However, resources for health center outreach activities are limited. No grants or
         application assistance payments are available. The PCA director stated that she would
         like to be able to assign staff to the health centers for two to three month periods.
         There they could devote full-time to explaining the program to children’s families or
         assisting them with applications while awaiting clinic appointments. This staff person
         could also call families and schedule appointments solely for outreach and enrollment
         purposes.

         Children in migrant and seasonal farm worker families were identified as needing
         intensified outreach activities. Because of South Carolina’s agricultural economy in
         rural areas, we also interviewed the coordinator of the State Migrant Health Program.
         The migrant worker population is very mobile, and follow-up regarding applications can
         be difficult. Currently, South Carolina does not have arrangements for portability or
         transferability49 of eligibility with surrounding States, and the migrant health staff we


Federally Funded Health Centers and CHIP          43                                    OEI-06-98-00320
         met with would like to see this issue addressed.

         Some outreach regarding the Medicaid eligibility expansion has started in Migrant Head
         Start programs, and respondents felt that these activities should be increased. Family
         Health Centers and Carolina Health Centers,50 whose director we interviewed
         separately by telephone, were working with the Migrant Head Start programs on such
         efforts. Services to this population are often delivered by mobile clinic vans or in
         temporary clinics located at the migrant camps. Families in this population are now
         settling in the State to work in poultry processing plants, and more of their children are
         coming to the main clinic sites. There, language barriers need to be addressed, along
         with establishment of trust, since many citizen children have parents who may not be
         documented.

Health Center Services for Children

         Primary/Preventive Services

         Family Health Centers offers children a comprehensive range of primary and preventive
         services. The services provided include prenatal care and delivery, immunizations,
         well-child care and primary care for illnesses. With a full pharmacy, the health center
         also participates in a pharmaceutical company’s cost-sharing program to assist low
         income, uninsured patients in receiving needed treatments.

         The health center has made a concerted effort in recent years to develop and expand
         its program of school-based clinics. It currently has four school clinics, staffed by nurse
         practitioners, and two additional schools have requested clinic services. The school
         clinics were implemented through Rural Demonstration Project funding through fiscal
         year 2000. The health center director is exploring sources of seed money to expand
         to these additional schools. Community health workers are also located at these
         school-based clinics to provide health education and outreach services.

         Enabling and Specialty Services

         Enabling services of case management, transportation and translation are also available
         to children served by the health center. Case management was emphasized as an
         important element in providing care. In particular, scheduling and follow-up on missed
         appointments for preventive care was felt to be significant. Although the Medicaid
         program had previously reimbursed the health centers directly for case management
         services, these functions are now provided under contract with the Health Department.
         However, the need for case management of services other than immunizations and
         well-child visits sites remains. Located in a very rural area, many of the health center’s
         patients have a significant need for transportation. Most specialty care for Medicaid
         and uninsured patients is provided by the University of South Carolina, located in
         Columbia, almost an hour’s drive away. However, only limited transportation is
         provided by the center. Of particular concern for pregnant women is the ambulance
         service based out of Columbia. In cases of pre-term labor, the hour long wait for an
         ambulance to transfer them to the University hospital represents a significant delay in


Federally Funded Health Centers and CHIP         44                                    OEI-06-98-00320
         receiving needed specialty care. Although the majority of the health center’s patients
         are African American, bi-lingual staff and translation services are important to the
         provision of seasonal care to migrant worker families. Two physicians and one nurse
         speak Spanish. For translation needs in other families, and further outreach to the
         migrant population, the health center has an arrangement with South Carolina State
         University to provide additional translation services.

         Health education is another key component of Family Health Center’s program. For
         children, much of this is provided at the school-based clinic sites. The medical director
         indicated a desire to include substance abuse prevention education in their middle
         school sites. For young children, the health center staff is developing a parent’s
         education book on basic baby care and child health needs. Family Health Centers is
         one of several Federal health centers participating in a diabetes management, quality
         improvement project recently initiated by the Bureau of Primary Health Care. Children
         and adults with diabetes will be part of this initiative.

         The health center also provides a full dental program comprised of two dentists and
         four dental assistants. As we found in other health centers visited, the need for dental
         care by the center’s population strains their current capacity. Consequently, priority
         for dental appointments is given to children.

CHIP Readiness

         Prior activities have prepared Family Health Centers for implementation of Medicaid
         managed care in South Carolina. The previous governor had submitted an 1115 Waiver
         to implement Medicaid managed care. As the waiver application was being developed,
         Family Health Centers, in conjunction with other Federally funded health centers in
         South Carolina and the PCA, obtained an Integrated Services Network grant from the
         Bureau of Primary Health Care to develop a managed care strategy. A for-profit
         corporation, Community Network, Inc., was formed with the director of Family Health
         Centers as president. Each health center made an investment of $25,000 and
         negotiations were conducted to partner with an existing managed care company in
         order to obtain additional capital and administrative expertise. When the waiver
         application was put on hold under a new State administration, Community Network
         decided not to enter into any Medicaid managed care contracts at that time. The
         corporate structure remains in place and provides the mechanism for the health centers
         to enter the managed care environment should Medicaid managed care expand beyond
         its currently limited voluntary program.

         Instead of instituting mandatory managed care, the State Medicaid program, in addition
         to its health maintenance organization option, developed two more voluntary managed
         care options tailored to the rural nature of the State. These programs, the Physicians
         Enhanced Program (PEP) and the Healthy Options Program (HOP) are types of primary
         care case management, as described in the State CHIP Model section. Family Health
         Centers is one of three Federal centers in South Carolina which, together with the
         PCA, is developing a demonstration project to experiment with PEP contracts in the
         Medicaid program. The Medicaid program and these health centers were, at the time


Federally Funded Health Centers and CHIP        45                                   OEI-06-98-00320
         of our visit, negotiating the details of which health center services, such as
         transportation, outreach and social services, should be excluded from the capitation
         payment and billed separately to Medicaid.

         Family Health Centers and the PCA have made some business infra-structure
         enhancements, and would like to implement others, to adjust to these managed care
         options. They have automated their patient accounting function, including encounter
         data, accounts payable, Medicaid and Medicare billing, general ledger and pharmacy.
         Although they are not yet billing Medicaid on-line, the electronic claims are downloaded
         onto diskettes and sent to the carriers. The financial officer noted further
         enhancements being considered are converting from a UNIX system to a PC system,
         and adding an in-house MIS manager, a financial management staff person, another
         billing staff person, and a medical coder.

         The South Carolina PCA is also assisting the health centers in adjusting to the new
         health care environment through infra-structure assessments. They have arranged for
         a business consultant to assess each health center by looking for ways to decrease
         costs and enhance staff productivity. Each health center will be provided with a report
         of its assessment. The director of Carolina Health Centers whom we interviewed,
         also emphasized the importance of centers becoming more “business-minded.” He
         stated that more technical assistance to health centers on business operations is
         needed, and suggested that HRSA contract with private trainers specializing in medical
         practice and financial management.

         Although the health centers in South Carolina are currently receiving cost-based
         reimbursement, some issues were identified. During the 1990's, South Carolina has
         had two periods in which all Medicaid reimbursements, including those to health
         centers, were capped. Although the cap has recently been lifted, the Director of
         Family Health Centers noted that the center had lost about $14 per patient visit when
         the cap was in place. This caused the health center to enter a financial recovery plan
         to reduce costs when the cap was in effect. Dental reimbursements, at $38 per visit,
         were stated to be too low to cover the cost of providing these services. Currently,
         dental costs can be captured in the cost settlements. However, as cost-based
         reimbursement is phased out according to Federal requirements, further cost
         efficiencies will be needed.

Key Factors for Success

         Family Health Centers is actively pursuing strategies to adjust to the Medicaid
         children’s expansion and the changing health care environment in South Carolina.
         They have made services to children a priority for the health center in recent years
         through expanding their school-based clinic program and looking forward to expansion
         in additional schools. Their dental program makes appointments for children a priority.
         Health education and outreach activities to children are also part of this strategy.
         Although mandatory Medicaid managed care has not yet come to this State, a
         corporate structure has been created to enable the health centers to enter such
         contracts in the future. Family Health Centers has been in the forefront of this effort.


Federally Funded Health Centers and CHIP        46                                  OEI-06-98-00320
         This health center is also working with the PCA and the Medicaid program to launch
         a demonstration project involving health centers in the partially capitated Physician
         Enhanced Program for primary care

         Although most interviewees in South Carolina stated a need for increased outreach
         activities, the State has been one of the more successful in enrolling newly eligible
         children. By enrolling over 50,000 children in the first year of the expansion, South
         Carolina exceeded its program goal. Most respondents felt this success was due to
         simplified application processes, reaching children through the schools, and in-person
         contacts when families seek care for their children. Family Health Centers has
         engaged in these activities, as well as contacting fee-for-service families among their
         clientele to provide information about the expansions, encourage enrollment, and offer
         assistance with applications. However, the director felt that more activities, particularly
         in-person contacts, are needed.

         Two challenges to the success of the South Carolina children’s Medicaid expansions
         remain. One of them is to enroll children in migrant farm worker families and provide
         for their health care needs. Pursuing portability or transferability of eligibility was
         noted as one option to address this problem, but this policy change has not yet been
         developed. Additional bi-lingual outreach workers would also enhance the efforts to
         enroll this population. Family Health Centers has an opportunity to provide such
         outreach during the months when they operate the mobile clinic in migrant camps.

         Another challenge identified is to make the adjustments required by the phase-out of
         cost-based reimbursement for health center services, especially considering the
         enabling services the health center provides. Family Health Centers encountered
         serious financial difficulties when the Medicaid cap was in place in South Carolina and
         is quite concerned about this transition. The PCA and health centers are now studying
         ways to improve their cost efficiency in preparation for the revenue reductions which
         will result from this change.




Federally Funded Health Centers and CHIP         47                                    OEI-06-98-00320
          HEALTH CENTERS OF NORTHERN N.M.
                                           Española, New Mexico



State Model: Medicaid expansion only which closely followed an earlier State-initiated expansion, except
for a cost-sharing element for families with higher incomes.

Center Highlights:
<      Center development through the merger of small, independent clinics resulted in its continued
       existence and viability;
<      Provides specialty services targeting client needs, such as their Diabetes Control Program and an
       asthma clinic;
<      Demonstrates effective managed care in a rural setting;

Challenge: Reimbursement issues remain, since center provides specialty services not included in current
health plan contracts. Additionally, low and selective dental reimbursement rates are causing the center to
consider discontinuing dental services altogether.



New Mexico CHIP Model

         New Mexico had already experienced Medicaid expansion in a managed care setting
         when it came time to implement CHIP. In 1995, the State began expanding Medicaid
         eligibility for children in families with incomes up to 185 percent of the Federal poverty
         level (FPL), resulting in over 38,000 additional Medicaid children.51 Somewhat later,
         but still before CHIP, the State legislature decided that Medicaid in New Mexico would
         convert to a Statewide, managed care model. For a predominantly rural State, this was
         an ambitious plan. All Medicaid recipients are now under managed care except for
         Medicare-Medicaid eligibles and people in institutional care.

         As part of the Medicaid transition to managed care prior to CHIP, three managed care
         organizations succeeded in winning contracts with the Human Services Department.
         They are Presbyterian Salud, Lovelace Salud, and Cimmaron Salud, all Statewide
         organizations. Presbyterian and Lovelace are both Federally qualified health plans, while
         Cimmaron is not.52 Operating under the optional Medicaid expansions passed by the
         State, these organizations are poised to implement the additional expansion outlined
         in the State’s CHIP plan.

         At the time of our visit, in September 1998, the State’s CHIP proposal had been
         submitted to HCFA, but was still awaiting approval. Later, the plan was approved,
         basically as submitted, on January 11, 1999.53 Classified only as a Medicaid expansion
         State under CHIP, New Mexico’s approach is more creative than a standard expansion.
         The State proposed additional increases in Medicaid eligibility for families with incomes
         up to 235 percent FPL. Open to the Medicaid expansion concept, but uncomfortable
         with free entitlements to families above 185 percent FPL, the Governor and legislature
         compromised on a cost-sharing approach for families between 185 percent and 235


Federally Funded Health Centers and CHIP            48                                       OEI-06-98-00320
         percent FPL. Under the proposal, each family pays a premium of 15 dollars per month
         regardless of household size or income level.54 Co-payments are assessed at the time
         of service delivery. However, once maximum annual limits are reached, families cease
         to have a co-payment requirement. The New Mexico CHIP proposal includes the
         implementation of continuous eligibility for 12 months to insure continuity of care,
         regardless of changes in income. This change should also reduce current administrative
         challenges of verifying eligibility on a monthly basis.

         Additional provisions discourage eligible families with private insurance from dropping
         their children’s coverage and enrolling them in the new program. When the State
         expanded Medicaid eligibility to 185 percent FPL, it found that 16 percent of those
         enrolled had private health insurance at the time of enrollment. Of that group, 25
         percent later dropped their private coverage.55 Thus, the State has proposed that
         children will be ineligible for 12 months from the date on which creditable health
         coverage was dropped. Exceptions are allowed for situations beyond the insured’s
         control.

Health Center Background

         Health Centers of Northern New Mexico (HCNNM), a single health care entity with
         administrative offices in Española, is the result of the consolidation of various small,
         rural clinics. With the original Española clinic in operation since 1972, the other clinics
         merged with it in the 1980's and 1990's to ensure their longevity and financial
         stability. Today, HCNNM operates under a volunteer Board of Directors, many of whom
         are directors from the previously independent clinics.

         The center currently consists of 13 primary care clinic sites, one of which is a
         university student health center, and one dental facility. Services are provided in 12
         different towns, over seven counties. Despite their number of service delivery sites,
         HCNNM is a medium-sized health center with approximately 16,000 registered patients
         in 1997. Except for Las Vegas and Española, HCNNM sites are the only providers of
         health services in the rural communities. Since the counties served include some of the
         highest State rates of unemployment and families living below the Federal poverty
         level, HCNNM is vital to them. HCNNM also operates school-based clinics in Española
         at the middle and high school levels. Seventy-five percent of clients are Hispanic, with
         the center reporting that overall 13 percent of clients require bilingual or translation
         services. Approximately 40 percent of patients who receive services are children.

Planning and Implementation

         HCNNM respondents felt they definitely had involvement in the CHIP planning process,
         but that it was almost exclusively through their Primary Care Association. Their PCA
         director sat on the State Medicaid advisory committee and advocated the health
         centers’ position in that forum. Yet, the process was not without controversy in the
         early design stages. A State official’s interpretation of regulations concluded that the
         State was only required to include one Federally Qualified Health Center (FQHC), a
         term which includes Federally funded health centers, in the managed care plan for the


Federally Funded Health Centers and CHIP         49                                    OEI-06-98-00320
         whole State.56 Fearing that the health centers would have little influence in changing
         this direction, the PCA involved HCFA in the plan development process. Beyond center
         advocacy, networking through the PCA has also proved useful in the development of
         additional means for centers to compete in the managed care environment. HCNNM
         is involved, through a spin-off of the PCA, in the New Mexico Integrated Services
         Network. This entity was established among the FQHCs to function as the contracting
         entity with the health plans on behalf of the clinics.

         The end result of these involvements was a State requirement that each managed care
         contract with at least one FQHC within each service area. This was specifically defined
         as at least one FQHC per county. As a result, about three-quarters of New Mexico’s
         health centers would be covered under this agreement, but the rest could be
         considered duplicates within a county and subject to non-inclusion. However, due to
         the large geographic size of the counties and the State’s rural nature, respondents felt
         that more than one health center in some of these areas was needed to provide
         effective healthcare coverage.

         Overall, the HCNNM executive director indicated that the health centers developed
         many program suggestions by benchmarking with other States and were able to
         channel those recommendations into the CHIP planning process via their PCA.
         Examples of their proposals to the State included parameters of reasonable geographic
         and financial access and a specific model for cost-based reimbursement.57

Outreach for CHIP

         New Mexico had undertaken a comprehensive outreach campaign following the
         implementation of Medicaid managed care. These actions are not considered CHIP
         outreach, since they involved the promotion of New Mexico’s Medicaid expansion prior
         to CHIP. However, because the State’s CHIP plan proposes to build on earlier Medicaid
         expansions, these outreach activities can be indicative of the State’s capabilities to
         market a new program to their population. A 24-hour phone bank was set up by the
         State to field calls and questions from the public regarding the Medicaid switch to
         managed care. Media campaigns were developed for TV, radio, and billboards to reach
         eligible populations. Six Statewide advocacy groups were also contracted to conduct
         outreach efforts to special needs populations, such as the mentally ill, American
         Indians, and those with HIV/AIDS. Each organization was paid between $15,000 and
         $20,000 to hold enrollment fairs Statewide. Since the State was continuing to mail out
         new paper Medicaid identification cards each month, informational mass mailings
         about Medicaid managed care were included with little additional effort. The Medicaid
         agency acknowledged that monthly identification cards are an out-dated method,
         which they hope to transition out of under CHIP. However, it did provide a regular
         communication link during the implementation of these new managed care programs.




Federally Funded Health Centers and CHIP        50                                  OEI-06-98-00320
         HCNNM views the lack of both eligibility workers and compensation for enrollment
         activities as a hindrance to the enrollment of all eligible children into Medicaid managed
         care. For a time, the State only utilized about 20 out-stationed eligibility workers in
         hospitals. The PCA contends that placing workers in clinics is more effective for
         enrolling children than placing them in hospitals, since hospitals typically only see those
         who are very sick. However, at the time of our site visit, there were no eligibility
         workers, since the hospital workers had been withdrawn due to a breakdown in
         contract re-negotiations.58 Rather than replace these individuals, the State hoped that
         the institution of presumptive eligibility, along with an aggressive training/certification
         program, would allow all the significant partners a role in the outreach/enrollment
         process. At the time of our visit, 600 individuals, against a goal of 2,000, had already
         been trained in the outreach and enrollment process for placement in schools,
         hospitals, and community centers.

         The clinic director felt that HCNNM was effective in its ability to enroll the eligible
         children of undocumented families in managed care plans. Typically, these families first
         enter the system through provision of prenatal care or delivery services, and the health
         center is usually able to retain the child in the Medicaid program thereafter.
         Acknowledging parents’ fears, due to their status and the INS, the State’s policy of
         not asking for Social Security numbers from parents aids them in placing the children
         into the Medicaid program.

         HCNNM would like to play a significant role in outreach under the current Medicaid
         expansion, as well as CHIP, but is unsure if it will have the resources to do so.
         Currently, unable to add social workers to every clinic site, they are trying to target
         enrollment through their school-based clinics. The fact that school-based clinics only
         exist in Española at this time underscores the obvious limitations to this approach. Yet,
         the social workers who are on staff do serve other clinic sites on a rotating basis.
         Since every clinic is not always staffed with a social worker, the director admits that
         some hit and miss of contacting potential enrollees must be occurring. However, he
         thought that the bulk of eligible children who visited their clinics were being signed up.
         Clinic staff also noted that simplifying and shortening the application materials and
         form would improve the process.

Health Center Services for Children

         Primary/Preventive Services

         HCNNM provides a full range of primary and preventative care to their children.
         HCNNM emphasizes family-oriented, comprehensive medical and dental health care
         with a focus on disease prevention and health promotion.59 Services include well-
         baby/well-child care, immunizations, prenatal and OB/GYN care. The center is staffed
         with family practice physicians, physician assistants, family nurse practitioners, nurses,
         health educators, clinical social workers, dentists, dental hygienists, and dental
         assistants. Other primary and preventive services include nutrition counseling,
         communicable disease prevention, family planning, diet and weight management, and
         smoking cessation.


Federally Funded Health Centers and CHIP         51                                    OEI-06-98-00320
         The health center operates school-based clinics at both the middle and high school in
         Española, and provides support for EPSDT screenings and immunizations for the
         elementary schools. These clinic sites operate with no Federal funding and rely instead
         upon the ability to bill some services to the State-supported Healthier Kids Fund.
         Clerical and administrative functions are funded by a small grant from the Department
         Of Health. Additional costs are covered by the HCNNM clinic system.

         HCNNM has a strong commitment to maintaining in-school delivery sites, despite the
         challenges of incorporating them into managed care. In general, health plans do not
         contract with the school-based clinics, although children do have the option of naming
         a school-based clinic as their primary care provider. Refusing to adopt a policy of only
         seeing select children in its school clinics, the center uses their Federal grant funds to
         subsidize costs incurred while treating children who do not select the school site as
         their primary care provider. HCNNM is trying to negotiate a role for the school-based
         clinics in the current managed care plans. One option is to allow reimbursement for
         services administered in the schools. These services could be limited to a list of the
         most frequently used CPT codes mutually identified by the center and health plan.60

Enabling and Specialty Services

         HCNNM offers some enabling services in addition to their primary care offerings.
         Formal translation services are not provided per se, but a good share of the clinical
         staff, including nurses and front office personnel, are bilingual. With such a large, rural
         area to cover, transportation barriers are a constant challenge. The health center is
         able to offer transportation services through the managed care organizations, who
         contract with independent providers of travel services. In cases requiring extensive
         travel, food and travel benefits may also be covered.

         The center has shown a commitment to providing selective, but needed, specialty
         services for its patients. For example, their Diabetes Control Program has become an
         integral part of the HCNNM services. The center director contends that diabetes is the
         major medical problem, other than drugs and alcohol, among the Hispanic population.
         In addition, they’re seeing Type II diabetes at increasingly younger ages. With two
         certified diabetic educators on staff, the program utilizes lay health advisors, who are
         diabetics themselves, to educate and train patients about life-style changes important
         to controlling the disease. Other innovative programs include the development of an
         asthma clinic for children. Although the center currently subsidizes the programs,
         which are not reimbursed under managed care, they are working with plans to include
         them as billable services. With adequate funding, they feel that these programs could
         be expanded. Yet, since managed care plans are often slow to recognize the benefits
         of services which fall outside of standard practice, HCNNM must try to “sell” the idea
         that such enterprises actually contain or reduce costs and improve the health status
         of susceptible clients.

         Preventive and restorative dentistry is available from HCNNM through the dental clinic
         site. The only dental provider, other than the single HCNNM location, is roughly 50
         miles away. Although adult dental needs in the area are great, limited capacity has


Federally Funded Health Centers and CHIP         52                                    OEI-06-98-00320
         forced HCNNM to only accept children at this time. Dental conditions observed among
         these children are comparable to those of the general U.S. population in the 1950's.61
         Some frustration has resulted because only selective benefits are covered under the
         current dental plan. As an example, expensive restorative measures, such as crowns,
         are covered, while preventive procedures, like pulp caps, are not.62 On another issue,
         the dental director believes that heavy metal amalgams should not be used for
         children’s fillings, yet the current plan won’t pay for composite fillings. Despite the
         obvious need, the current low dental reimbursement rates are causing HCNNM to
         consider discontinuance of its dental services altogether.

CHIP Readiness

         To insure its viability, HCNNM had completed progressive restructuring before the
         introduction of managed care and CHIP. Through consolidation of free-standing clinics
         over the past two decades, the center now provides services from 13 sites in 12
         towns. As a result, it is almost guaranteed inclusion in any significant health network
         in Northern New Mexico due to the large territory it serves and, in many cases, its
         being the only health care provider in those areas. Having already experienced a
         Statewide conversion of Medicaid to managed care, the center’s mode of operation
         should not be impacted by expansions under CHIP.

         HCNNM has been aggressive in its provision of specialty services to its clients. The
         asthma clinic and Diabetes Control Program are being utilized, and may even warrant
         expansion, before reimbursement agreements have been secured with the managed
         care organizations. Although the health center is committed to these programs,
         securing adequate reimbursement is needed to guarantee funding for the long term.
         HCNNM provides dental services, that are reimbursed through a carve-out contract,
         which is administered by an out-of-State entity. The center considers dental
         reimbursement rates too low but reported the State’s intentions to provide additional
         dental funding with forthcoming legislation. It is hoped that raising the reimbursement
         level will entice other providers to offer dental services to Medicaid recipients, which
         will reduce the number of individuals not served due to limited capacity.

Key Factors for Success

         The early foresight of HCNNM to merge with other small clinics is likely to be a
         significant factor in their continued existence. Well before managed care, they realized
         the increased stability and opportunities such action could bring. Being a larger
         organization, HCNNM is probably able to recruit management personnel of a higher skill
         and experience level than rural, free-standing clinics. This has aided them in their
         mission to serve their communities and maintain a significant service role under State-
         instituted managed care and Medicaid expansions.

         HCNNM has maintained its commitment to providing quality health care to the
         underserved and has been aggressive in addressing emerging issues through its
         programming. The development of services targeting those with asthma and diabetes
         is a response to the increase in these diseases among their target populations. HCNNM

Federally Funded Health Centers and CHIP        53                                  OEI-06-98-00320
         has also realized that, because of transportation barriers and other factors, they could
         reach more children through schools and, therefore, have invested resources in their
         school-based clinics. These ventures make HCNNM highly effective in serving its
         clients. However, since many of these programs have not yet been included in
         contracts with health plans, HCNNM is not currently being reimbursed for them.
         Clearly, the center cannot continue to fund a variety of programs exclusively on its
         own, although it appears willing to do so if necessary. The ability of HCNNM to
         demonstrate, to the managed care plans, the long-term benefits and savings resulting
         from such innovative programming and the extent to which they can be incorporated
         into reimbursement contracts, will greatly impact the long term success of the center
         and the care it provides.

         Despite their own and the State’s efforts, HCNNM still perceives a deficit in outreach
         activities. Although the HCNNM took issue with both the State’s placement of
         eligibility workers in the hospitals, as well as the inability to settle the contract
         disputes, whether that loss will be compensated for by the additional 600 trained
         eligibility workers, and the promise of more, remains to be seen. It is likely that the
         training program will significantly improve outreach effectiveness. However, from the
         health center’s standpoint, they are still unable to staff every clinic site with a full-time
         outreach worker. They perceive that any State outreach agenda should include aid to
         clinics for adding their own outreach personnel.




Federally Funded Health Centers and CHIP          54                                     OEI-06-98-00320
                                           ENDNOTES


1.	      Primary Care Associations (PCAs) are State-based membership organizations that
         represent safety-net providers in their efforts to increase access to preventative and
         primary care services and to improve the health status of underserved and vulnerable
         populations. The major sources of funding for PCAs are membership dues and grants
         from the Health Resources and Services Administration (HRSA) Bureau of Primary
         Health Care (BPHC). In addition, PCAs receive funding from other sources including
         States and private foundations.

2.	      Sara Rosenbaum, Kay Johnson, Colleen Sonosky, Anne Markus and Chris DeGraw, “The
         Children’s Hour: The State Children’s Health Insurance Program,” Health Affairs,
         January/February 1998, pp. 75-89.

3.       Ibid.

4.	      Neal Halfon, Moira Inkelas, Helen DuPlessis and Paul W. Newacheck, “Challenges in
         Securing Access to Care for Children,” Health Affairs, March/April 1999, pp. 48-63.

5.	      The 70 percent enrollment rate refers to Medicaid eligible children who do not have
         private insurance. Thomas M. Selden, Jessica S. Banthin, and Joel W. Cohen,
         “Medicaid’s Problem Children: Eligible But Not Enrolled,” Health Affairs, May/June
         1998, pp. 192 -200. The authors used the 1996 data from the Medical Expenditure Panel
         Survey which is believed to capture the most comprehensive data available in a national
         survey regarding Medicaid enrollment.

6.	      Margaret Edmunds and Molly Joel Coyce, eds., America’s Children: Health Insurance
         and Access to Care,” Institute of Medicine, National Research Council, 1998.

7.	      Sara Rosenbaum, Barbara M. Smith, Peter Shin, Marcie H. Zakheim, Karen Shaw,
         Colleen A. Sonosky and Lee Repasch, Negotiating The New Health System: A National
         Study of Medicaid Managed Care Contracts, The George Washington University Center
         for Health Policy Research, February 1998.

8.	      The Lewin Group, Evaluation of the Impact of the Medicaid Waivers on Consumers and
         Services of Federally Qualified Health Centers, November 1997.

9.	      Stephen A. Norton and Debra J. Lipson, Public Policy, Market Forces, and the Viability
         of Safety Net Providers, The Urban Institute, 1998.

10.	     Colleen M. Grogan and Michael K. Gusmano, “How Are Safety-Net Providers Faring
         Under Medicaid Managed Care?” Health Affairs, March/April 1999, pp. 233 - 237.



Federally Funded Health Centers and CHIP         55                                    OEI-06-98-00320
11.	     Debra J. Lipson and Naomi Naierman, “Effects of Health Systems Changes On Safety-Net
         Providers,” Health Affairs, Summer 1996, pp. 33 - 47.

12.	     Debra J. Lipson, “Medicaid Managed Care and Community Providers: New Partnerships,”
         Health Affairs, July/August 1997, pp. 91 - 107.

13.      Ibid.

14.	     We originally planned to visit a seventh site where the health center also received a grant
         to operate a Health Care for the Homeless program. However, injury of a study team
         member caused us to cancel this site visit. We conducted a telephone interview with the
         Executive Director of this center and members of his staff. Issues and insights from this
         interview are incorporated in the design of the national survey.

15.	     Due to scheduling difficulties a few interviews were conducted by telephone with managed
         care organizations.

16.	     We are very appreciative of the time spent and feedback from the Connecticut
         interviewees in honing our data collection tools.

17.	     Due to taping problems in very few interviews, parts or all of these interviews were
         summarized from interviewer notes.

18.      QSR NUD*IST 4, 2nd edition.

19.	     Connecticut State Child Health Plan Under Title XXI of the Social Security Act: The
         HUSKY Plan, John Rowland Governor, State of Connecticut, January 7, 1998.

20.      Fair Haven Health Center Uniform Data System Annual Report, 1997.

21.      The flier was targeted roughly at the estimated 4th grade reading level of their clientele.

22.	     Connecticut Department of Social Services Request for Proposals, Outreach for the
         HUSKY Program, 1998.

23.	     Interview of Katrina Clark, Executive Director, Fair Haven Community Health Center,
         August 18, 1998.

24.	     Memorandum of Agreement, Connecticut Department of Social Services and the Federally
         Qualified Health Centers, May 15, 1998.

25.      Healthy Families Handbook, State of California, July 1998.

26.      La Clínica de la Raza Uniform Data System Annual Report, 1997.

27.	     The public charge issue is discussed at more length in a separate OEI report regarding
         CHIP and Medicaid application processes, The Children’s Health Insurance Program:


Federally Funded Health Centers and CHIP           56                                     OEI-06-98-00320
         State Application and Enrollment Processes: An Early Report from the Front Lines,
         OEI-05-98-00310.

28.      “Immigration Update,” California Primary Care Association, 1998.

29.      Memorandum from Pieternel Barel, July 23, 1999.

30.	     “Public Charge Fact Sheet,” Department of Justice, Immigration and Naturalization
         Service, May 25, 1999.

31.	     Although 60 percent of the Healthy Families target population is estimated to be Latino in
         California, only 22 percent of early enrollees were of Latin American descent.
         “Immigration Update,” California Primary Care Association, 1998.

32.	     “Healthy Families Program 1988-1999 Community Provider Plan Designation,” Managed
         Risk Medical Insurance Board, 1998.

33.      Interview of Jane Garcia, Executive Director, La Clínica de la Raza, September 3, 1998.

34.      MIChild Bulletin, MIChild Eligibility 98-01, State of Michigan.

35.      MIChild Contract between the Michigan Department of Community Health (template).

36.      Cherry Street Health Services UDS report, February, 1998.

37.      Ibid.

38.	     Memorandum of Agreement Between Medical Services Administration and a Federally
         Qualified Health Center (FQHC), July 1, 1997.

39. 	    Free & Low-Cost Health Insurance: Children You Know are Missing Out, Donna Cohen
         Ross and Wendy Jacobson, Center on Budget and Policy Priorities, 1998.

40.      From the State of Colorado CHP+/Baby Care Kids Care application.

41.      From the State of Colorado CHP+/Baby Care Kids Care application.

42.	     A visit co-payment is usually five dollars. A center then submits a write-off to the State
         which reimburses 27 percent of the center’s costs. The remaining percent (roughly 70%) is
         absorbed by the center internally.

43.	     According to the Primary Care Association director, HCFA made the decision, based on
         Federal law, that the health centers could not use the discounted vaccines under a
         freestanding commercial plan. Health centers would then need to find alternative ways to
         purchase vaccines for children under the CHP+ plan. The director noted that the Primary
         Care Association had plans to try to change the law at the national level so that States
         who chose a non-Medicaid approach could use these vaccines for children.


Federally Funded Health Centers and CHIP         57                                    OEI-06-98-00320
44.	     Partners for Healthy Children in South Carolina, Governor David M. Beasley,
         September 1, 1998.

45.	     Medicaid Managed Care materials provided by South Carolina Medicaid Program,
         September, 1998.

46.	     Informational materials provided by the South Carolina Medicaid Program, September,
         1998.

47.      Family Health Center Uniform Data System Annual Report, 1997.

48.	     Partners for Healthy Children in South Carolina, Governor David M. Beasley,
         September 1, 1998.

49.	     Portability of coverage refers to the ability of the family to use South Carolina Medicaid
         coverage in another State. Transferability refers to reciprocal agreements between States
         to accept the eligibility status as determined by the original State.

50.	     We conducted a telephone interview with the director of Carolina Health Center because
         this center has a Migrant Health Center grant to serve this population.

51.	     Model Application Template for State Child Health Plan Under Title XXI of the Social
         Security Act State Children’s Health Insurance Program, State of New Mexico.

52.	     Cimmaron members can switch primary care providers or health plans every 30 days,
         while those under Presbyterian Salud or Lovelace are subject to a 6 month lock-in.

53.	     A Health and Human Services press release dated January 11, 1999 announced the
         approval of New Mexico’s plan for children’s health insurance.

54.      Ibid.

55.	     Model Application Template for State Child Health Plan Under Title XXI of the Social
         Security Act State Children’s Health Insurance Program, State of New Mexico.

56.	     According to the PCA director, a previous Secretary of Human Services Department
         interpreted regulations as only requiring that at least one Federally Qualified Health Center
         (FQHC) be involved in the State’s managed care plan under CHIP. This official is no
         longer in the position, and HCFA got involved in the process which determined that
         HMOs would have to contract with one FQHC per county.

57.	     Interviewees referred to this as the “Wisconsin model,” although we were unable to
         determine the specific characteristics of this “model.”

58.	     The PCA director reported that contract negotiations broke down between the State and
         the hospitals. The Human Services Department stated that the contract simply couldn’t be
         re-negotiated. However, the hospitals claim that although the Human Services Department

Federally Funded Health Centers and CHIP          58                                     OEI-06-98-00320
         was receiving 50 percent reimbursement from the Federal government, for the eligibility
         workers, and were responsible for matching the other 50 percent, they attempted to bill
         the hospital for the full amount.

59.      Health Centers of Northern New Mexico, Caring For You..., Informational Brochure.

60.	     CPT stands for common procedural terminology. These codes are utilized by health care
         providers in billing insurers.

61.	     This comparison was drawn by the Senior Dentist of Health Centers of Northern New
         Mexico.

62.	     A pulp cap covers an area of small exposure due to decay and prevents further damage,
         while a crown covers the entire tooth when too much surface damage has occurred.




Federally Funded Health Centers and CHIP         59                                   OEI-06-98-00320
                                     BIBLIOGRAPHY



Bureau of Primary Health Care, Department of Health and Human Services and National
Association of Community Health Centers, Inc., Final Report: 1998 Health Center Clinic Hours
and Services, 1999.

Cousineau, Michael R. and Eve Wittenberg, Study of the Health Care for the Homeless Program,
Bureau of Primary Health Care, September 1995.

Edmunds, Margaret and Molly Joel Coyce, eds., America’s Children: Health Insurance and
Access to Care, Institute of Medicine, National Research Council, 1998.

Feld, Peter, Courtney Matlock, and David R. Sandman, Insuring the Children of New York City’s
Low-Income Families: Focus Group Findings on Barriers to Enrollment in Medicaid and Child
Health Plus, The Commonwealth Fund, December 1998.

The George Washington University Center for Health Policy Research, “Expansions of Coverage,
Managed Care Create New Outreach Challenges,” Health Policy, Child Health, Vol. 2, No. 1,
Winter 1995.

The George Washington University Center for Health Policy Research, “Implementing Title XXI:
States Face Choices,” Health Policy, Child Health, Vol. 4, No. 4, Fall 1997.

Grogan, Colleen M. and Michael K. Gusmano, “How Are Safety-Net Providers Faring Under
Medicaid Managed Care,” Health Affairs, March/April 1999, pp. 233-237.

Halfon, Neal, Moira Inkelas, Helen DuPlessis and Paul W. Newacheck, “Challenges in Securing
Access to Care for Children,” Health Affairs, March/April 1999, pp. 48-63.

Hall, Christopher H., Mary Alice Lee, and Judith Solomon, “The Children’s Health Council: A
Community Foundation/State Government Partnership,” Health Affairs, July/August 1999, pp.
167 - 171.

Immigration and Naturalization Service, Department of Justice, “Public Charge Fact Sheet,” May
25, 1999.

The Lewin Group, Evaluation of the Impact of the Medicaid Waivers on Consumers and Services
of Federally Qualified Health Centers, November 1997.




Federally Funded Health Centers and CHIP       60                                  OEI-06-98-00320
The Lewin Group, The Impact of Expanding Children’s Health Insurance on the Role of
Maternal and Child Health Title V Programs, May 20, 1998.

Lipson, Debra J., “Medicaid Managed Care and Community Providers: New Partnerships, Health
Affairs, July/August 1997, pp.91-107.

Lipson, Debra J. and Naomi Naierman, “Effects of Health Systems Changes on Safety-Net
Providers, Health Affairs, Summer 1996, pp. 33-47.

Norton, Stephen A. and Debra Lipson, Public Policy, Market Forces and the Viability of Safety
Net Providers, The Urban Institute, 1998.

Office of Inspector General, Department of Health and Human Services, School-Based Health
Centers and Managed Care, OEI-05-92-00680, December 1993.

Office of Inspector General, Department of Health and Human Services, The Children’s Health
Insurance Program: State Application and Enrollment Processes An Early Report from the Front
Lines, OEI-05-98-00310, 1999.

Riley, Trish, “How Will We Know If CHIP Is Working?” Health Affairs, March/April 1999,
pp.64-66.

Rosenbaum, Sara, Kay Johnson, Colleen Sonosky, Anne Markus and Chris DeGray, “The
Children’s Hour: The State Children’s Health Insurance Program,” Health Affairs,
January/February 1998, pp. 75-89.

Rosenbaum, Sara, Barbara M. Smith, Peter Shin, Marcie H. Zakheim, Karen Shaw, Colleen A.
Sonosky and Lee Repasch, Negotiating The New Health System: A National Study of Medicaid
Managed Care Contracts, The George Washington University Center for Health Policy Research,
February 1998.

Ross, Donna Cohen and Wendy Jacobson, Free and Low-Cost Health Insurance: Children You
Know are Missing Out, Center on Budget and Policy Priorities, 1998.

Schauffler, Helen Halpin and Jessica Wolin, “Community Health Clinics under Managed
Competition: Navigating Uncharted Waters,” Journal of Health Politics, Policy and Law, Vol. 21,
No. 3, Fall 1996, pp.461- 488

Selden, Thomas M., Jessica S. Banthin, and Joel W. Cohen, “Medicaid’s Problem Children:
Eligible But Not Enrolled,” Health Affairs, May/June 1998, pp.192-200.




Federally Funded Health Centers and CHIP       61                                  OEI-06-98-00320
                                           APPENDIX A



                                           DOCUMENTS REVIEWED


 Title                                     Author/Agency                          Date
 CALIFORNIA
 Expanding Healthy                         California Primary Care Association    10/98
 Horizons
 Community Health                          CPCA - Carmela Castellano, JD, CEO     07/98
 Centers and Healthy
 Families
 Immigration Update                        California Primary Care Association    08/98
 Newsletter - CPCA                         California Primary Care Association    08/98
 Strengthens Clinic Role in
 Rural Projects
 Letter to Sidney Trieger -                CPCA - Carmela Castellano, Esq., CEO   07/98
 California Compliance
 with Balanced Budget
 Act
 Senate Bill - An act to                   Introduced by Senator Rosenthal        02/97
 amend Section 14087-                      (Principal coauthor: Senator Watson)
 325 of the Welfare and
 Institutions Code, relating
 to public social services.
 Healthy Families Program                  Managed Risk Medical Insurance         09/98
 Subscribers Enrolled By                   Board Home Page
 Ethnicity
 Letter to Carmela                         DHHS/Health Care Financing             09/98
 Castellano, Esq., CEO                     Administration
 Affordable Health Care                    State of California                    07/98
 For Children and Teens
 Handbooks

Federally Funded Health Centers and CHIP               62                           OEI-06-98-00320
 Title                                     Author/Agency                         Date


 CALIFORNIA continued
 Social Security Act-                      Social Security Administration        N/A
 1902(a)(55)
 Welfare and Institutions                  State of California                   N/A
 Code
 42 CAR 435.904                            DHSS/HCFA                             N/A
 OBRA 90 - Outstanding                     Social Security Administration        N/A
 Mandate
 State Medicaid Manual -                   DHSS/HCFA                             06/91
 Section 2905
 Letter to Hospital/Clinic                 DHSS/State of Carolina - Health and   N/A

 Administrator                             Welfare Agency

 Memo to All County                        Outstanding Eligibility Worker (EW)   35856

 Welfare Directors,                        Program Petitions and Reporting

 Administrative Officers,                  Update

 Medi-Cal Program
 Specialist/Liaisons,
 Outstationed Eligibility
 Workers Coordinators
 Medical Service                           Community Health Center Network       N/A

 Agreement between
 Alameda Alliance for
 Health & Community
 Health Center Network
 Letter to Providers on                    Blue Cross of California              35954

 Healthy Families Program
 Media Release                             Latino Coalition for a Healthy        35977

                                           California

 California Kids Enrollment                La Clínica de La Raza                 N/A

 Form



Federally Funded Health Centers and CHIP               63                          OEI-06-98-00320
 Title                                     Author/Agency                         Date
 FQHC Reconciliation                       Alameda Alliance for Health           36041
 Statement
 CALIFORNIA continued
 Medical Service                           Alameda Alliance for Health           N/A
 Agreement between
 Alameda Alliance for
 Health & Alameda
 County Ambulatory Care
 Amended and Restated                      Alameda Alliance for Health           N/A
 Medical Service
 Agreement between
 Alameda Alliance for
 Health & Community
 Health Center Network
 Quality Health Care For                   Alameda Alliance for Health
 Your Children Brochure
 Instruction on usage of                   Alameda Alliance for Health           N/A
 Co-Pay Card, Guidelines
 for Children’s Checkups,
 Customer Complaint
 Forms, Provider List
 Letter to Providers on                    Alameda County Health Care Services   35957
 Healthy Families                          Agency
 Combined Evidence of                      Alameda Alliance for Health           N/A
 Coverage & Disclosure
 Form
 Article 4. Risk Categories                N/A                                   N/A
 and Family Contributions
 Health Plan Model                         Healthy Families Program              N/A
 Contract




Federally Funded Health Centers and CHIP              64                           OEI-06-98-00320
 Title                                     Author/Agency                       Date
 CALIFORNIA continued
 Memorandum to Sandra                      Sara Rosenbaum, GWUMC/CHPR          35748
 Shewry, MRMIB - Re:                       The George Washington University
 Defining what constitutes                 Medical Center
 a “community provider”
 under the Health Family
 Program
 Letter to Clifford L.                     Mark D. Smith, M.D., M.B.A. -       35767
 Allenby, Chair, Managed                   California Health Care Foundation
 Risk Medical Insurance
 Board
 HFP Subscribers Enrolled                  Healthy Families Program            36028
 in CPP By County
 1998-99 Community                         Healthy Families Program            N/A
 Provider Plan Designation
 Hospital Providers By                     Healthy Families Program            35823
 County
 Clinic Providers By                       Healthy Families Program            N/A
 County
 COLORADO
 Parents Handbook                          Child Health Plan Plus (CHP+)       N/A
 Here’s How To Make                        Child Health Plan Plus (CHP+)       N/A
 Your Monthly
 Payments...
 Benefits Booklet                          Child Health Plan Plus (CHP+)       N/A
 Choose An MCO -                           Child Health Plan Plus (CHP+)       N/A
 (Information Packet)
 Provider Manual                           Colorado Access                     05/98
 Member Handbook,                          Colorado Access                     N/A
 Provider Directory,
 Evidence of Coverage,
 Provider Bulletin

Federally Funded Health Centers and CHIP              65                         OEI-06-98-00320
 Title                                     Author/Agency                          Date
                                           .
 COLORADO continued
 Center/Grantee Profile -                  Plan de Salud del Valle, Inc           35840
 Cover Sheet
 Listing of Community                      Colorado Community Health Network      N/A
 Health Centers/Federally
 Qualified Health Centers
 10 Ways To Tell the                       Colorado Community Health Network      N/A
 Difference Between A
 Community Health Center
 & A Rural Health Clinic
 Charts on Health Center                   Colorado Community Health Network      N/A
 Patients
 Application for Health                    Child Health Plan Plus (CHP+)          N/A
 Care for Colorado
 Children
 CONNECTICUT
 MOA between Dept of                       Connecticut Department of Social       35928
 Social Services &                         Services
 Community Health
 Network of Connecticut,
 Inc.
 Center/Grantee Profile -                  Fair Haven Community Health Center     35840
 Cover Sheet
 Request For Application -                 Department of Social Services          N/A
 Outreach for the HUSKY
 Program
 Utilization and Quality                   Connecticut Community Health           N/A
 Data, Directory of                        Centers
 Members,
 Conference on                             Connecticut Primary Care Association   35969
 Collaboration


Federally Funded Health Centers and CHIP               66                           OEI-06-98-00320
 Title                                     Author/Agency                        Date


 CONNECTICUT
 continued
 State Child Health Plan                   State of Connecticut                 35801
 Under Title XXI of the
 Social Security Act
 Purchase of Service                       State of Connecticut                 N/A
 Contract Between The
 CT Dept of Social
 Services & HealthRight,
 Inc.
 Letter to Joyce Thomas,                   DHHS/HCFA                            34899
 Commissioner, DSS
 MICHIGAN
 Memorandum of                             Robert M. Smedes
                    35611
 Agreement Between the                     Chief Executive Officer

 Medical Services                          Medical Services Administration

 Administration and                        Michigan Department of Community

 Federally Qualified Health                Health
 Centers
 Brochure: Cherry Street                   Chris Shea
                          1998
 Health Services                           Executive Director

 Introduces a New                          Cherry Street Health Services

 Opportunity for
 Uninsured Children in
 Michigan
 Testimony to House                        Michigan Primary Care Association
   35828
 Appropriations Sub-
 Committee Re: MIChild
 Proposed Plan
 Letter to Althia Carr Re:                 Katheryn Harstad
                    36019
 MIChild Application                       Farmworker Legal Services





Federally Funded Health Centers and CHIP              67                          OEI-06-98-00320
 Title                                     Author/Agency                       Date
 MICHIGAN continued
 Letter to Mr. Richard                     Robert M. Smedes                    35858
 Fenton Re: Michigan’s                     Chief Executive Officer
 Response to HCFA                          Medical Services Administration
 questions regarding                       Michigan Department of Community
 SCHIP application                         Health
 Substitute for Michigan                   Michigan House of Representatives   1998
 House Bill No. 5532
 MiChild appropriations
 MIChild Contract                          Michigan Department of Community    35946
                                           Health
 MIChild Member                            Community Choice Michigan           June 1998
 Handbook
 MIChild Application                       Michigan Department of Community    1998
                                           Health
 MIChild Certificate of                    Community Choice Michigan           June 1998
 Coverage
 Primary Care Group                        Community Choice Michigan           October
 Aggreement                                                                    1997
 Provider Services                         Community Choice Michigan           August
 Agreement Risk Sharing                                                        1997
 Addendum
 MIChild Eligibility Manual                Michigan Department of Community    35946
 98-01                                     Health
 MIChild and Healthy Kids                  Michigan Family Independence        35960
 Application                               Agency
 NEW MEXICO
 Memo: Amendment to                        New Mexico Human Services           36055
 FQHC Agreement. From:
 Charles Milligan, Director
 Member Handbook                           Cimarron Salud (Health Plan)        N/A
 (Bilingual)

Federally Funded Health Centers and CHIP              68                         OEI-06-98-00320
 Title                                     Author/Agency                       Date
 NEW MEXICO continued
 Member Handbook                           Presbyterian Salud (Health Plan)    N/A
 (Bilingual)
 Member Handbook 1998                      Lovelace Community Health Plan      36068
 (A Salud Program)
 New Mexico Managed                        Health Centers of Northern New      N/A
 Care Program- SALUD to                    Mexico
 Your Health: Pamplets,
 Newsletters
 Presumptive Eligibility                   Medical Assistance Division         35976
 and Medicaid On Site
 Application Assistance
 Training
 Provider Policies                         Health Care Professional Services   34730
 Intake/Admission Criteria                 N/A                                 34221
 Letter: Albuquerque Girl’s                State of New Mexico - Children,     N/A
 Community Residential                     Youth and Families Department -
 Facility - Admission                      Juvenile Justice Division
 Criteria
 EPSDT Psychosocial                        New Mexico Child and Adolescent     05/96
 Rehabilitation Level of                   Mental Health Services
 Care Assessment
 Abstract Criteria
 Memo to: Steve Smith,                     New Mexico Human Services           N/A
 Executive Account                         Department
 Manager - Re: Request
 for Ad hoc (Services)
 Memo to: Salud Managed                    New Mexico Human Services           35582
 Care - Re: Guidance                       Department
 Memorandum #8 - Native
 American Issues




Federally Funded Health Centers and CHIP              69                         OEI-06-98-00320
 Title                                     Author/Agency               Date
 New Mexico continued
 Memo to: Salud                            New Mexico Human Services   35572
 Managed Care - Re:                        Department
 Guidance Memorandum
 #7 - Questions
 Memo to: Salud Managed                    New Mexico Human Services   35571
 Care - Re: Guidance                       Department
 Memorandum #6 - MCO
 Client-specific Requests
 for Current UR Files
 Memo to: Salud Managed                    New Mexico Human Services   35565
 Care - Re: Guidance                       Department
 Memorandum #5 -
 Marketing Guidelines
 Memo to: Salud Managed                    New Mexico Human Services   35555
 Care Contractors - Re:                    Department
 Guidance Implementation
 Memorandum #4
 Memo to: Salud Managed                    New Mexico Human Services   35549
 Care Contractors - Re:                    Department
 Guidance Implementation
 Memorandum #3
 HSD Response to Benefit                   New Mexico Human Services   N/A
 Questions                                 Department
 Memo To: Salud                            New Mexico Human Services   35535
 Managed Care                              Department
 Organization - Re:
 Guidance Implementation
 Memorandum #1
 Salud Managed Care                        N/A                         35990
 General Program
 Description




Federally Funded Health Centers and CHIP             70                  OEI-06-98-00320
 Title                                     Author/Agency                      Date
 NEW MEXICO continued
 SALUD Enrollees By Plan                   N/A                                36039
 For The September 98
 Capitation
 State Children’s Health                   New Mexico Human Services          N/A
 Insurance Program                         Department
 (SCHIP) - (Title XIX)
 Medicaid - Proposed
 Regulations
 Evaluation of MCOs                        New Mexico Human Services          N/A
 Performance Against NM                    Department
 Quality Management
 Standards
 Model Application                         N/A                                N/A
 Template for State Child
 Health Plan Under Title
 XXI of the Social Security
 Act - State Children’s
 Health Insurance Program
 Medicaid Managed Care                     State of New Mexico - New Mexico   N/A
 Services Agreement -                      Human Services Department
 Presbyterian Health Plan.
 Inc. of Albuquerque, New
 Mexico
 Medicaid Managed Care                     State of New Mexico - New Mexico   N/A
 Services Agreement -                      Human Services Department
 Cimarron Health
 Maintenance
 Organization, of Las
 Cruces
 Medicaid Managed Care                     State of New Mexico - New Mexico   N/A
 Service Agreement -                       Human Services Department
 Lovelace Health Plan of
 Albuquerque, New
 Mexico


Federally Funded Health Centers and CHIP             71                         OEI-06-98-00320
 Title                                     Author/Agency                        Date
 SOUTH CAROLINA.
 Medicaid Program                          State of South Carolina              35550
 Handbook
 Migrant Health Program                    N/A                                  35838
 Chart
 Managed Care Options                      NA                                   N/A
 A New Choice Booklet                      Medicaid Managed Care Health Plans   N/A
 Partners for Healthy                      Family Health Centers, Inc.,         N/A
 Children Packet                           Orangeburg
 Packet for Applicants                     S. Carolina Partners for Healthy     N/A
 whose Counties do not                     Children
 have HMOs
 Contract Between South                    N/A                                  N/A
 Carolina DHSS and _____
 For Purchase and
 Provision of Medical
 Services Under the S.
 Carolina Medicaid HMO
 Program




Federally Funded Health Centers and CHIP              72                          OEI-06-98-00320
